<html>
<title> - PROPOSED FISCAL YEAR 2002 BUDGETS FOR THE DEPARTMENT OF THE INTERIOR AND THE NATIONAL PARK SERVICE</title>
<body><pre>[Senate Hearing 107-115]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-115

 PROPOSED FISCAL YEAR 2002 BUDGETS FOR THE DEPARTMENT OF THE INTERIOR 
                     AND THE NATIONAL PARK SERVICE

=======================================================================

                                HEARINGS

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES

                                and the

                    SUBCOMMITTEE ON NATIONAL PARKS,
                 HISTORIC PRESERVATION, AND RECREATION

                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

 TO CONSIDER THE PRESIDENT'S PROPOSED FISCAL YEAR 2002 BUDGETS FOR THE 
        DEPARTMENT OF THE INTERIOR AND THE NATIONAL PARK SERVICE

                               __________

                           MAY 8 AND 10, 2001


                       Printed for the use of the
               Committee on Energy and Natural Resources

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
74-765                     WASHINGTON : 2001


_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  FRANK H. MURKOWSKI, Alaska, Chairman
PETE V. DOMENICI, New Mexico         JEFF BINGAMAN, New Mexico
DON NICKLES, Oklahoma                DANIEL K. AKAKA, Hawaii
LARRY E. CRAIG, Idaho                BYRON L. DORGAN, North Dakota
BEN NIGHTHORSE CAMPBELL, Colorado    BOB GRAHAM, Florida
CRAIG THOMAS, Wyoming                RON WYDEN, Oregon
RICHARD C. SHELBY, Alabama           TIM JOHNSON, South Dakota
CONRAD BURNS, Montana                MARY L. LANDRIEU, Louisiana
JON KYL, Arizona                     EVAN BAYH, Indiana
CHUCK HAGEL, Nebraska                DIANNE FEINSTEIN, California
GORDON SMITH, Oregon                 CHARLES E. SCHUMER, New York
                                     MARIA CANTWELL, Washington

                    Brian P. Malnak, Staff Director
                      David G. Dye, Chief Counsel
                 James P. Beirne, Deputy Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
              Kelly Johnson, Counsel for Natural Resources


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearings:
    May 8, 2001..................................................     1
    May 10, 2001.................................................    31

                               STATEMENTS
                              May 8, 2001

Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     4
Craig, Hon. Larry E., U.S. Senator from Idaho....................    21
Johnson, Hon. Tim, U.S. Senator from South Dakota................     2
Kyl, Hon. Jon, U.S. Senator from Arizona.........................    20
Murkowski, Hon. Frank H., U.S. Senator from Alaska...............     1
Norton, Hon. Gale, Secretary, Department of the Interior, 
  accompanied by Ann Klee, Counselor to the Secretary, and John 
  Trezise, Director, Office of Budget............................     5

                              May 10, 2001

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................    32
Galvin, Denis P., Acting Director, National Park Service, 
  Department of the Interior.....................................    33
Thomas, Hon. Craig, U.S. Senator from Wyoming....................    31

                                APPENDIX

Responses to additional questions................................    51

 
 PROPOSED FISCAL YEAR 2002 BUDGETS FOR THE DEPARTMENT OF THE INTERIOR 
                     AND THE NATIONAL PARK SERVICE

                              ----------                              


                          TUESDAY, MAY 8, 2001

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:40 a.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Frank H. 
Murkowski, chairman, presiding.

         OPENING STATEMENT OF HON. FRANK H. MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. The Energy and Natural Resources Committee 
will come to order. Let me welcome Secretary Norton. This is 
your first of what will undoubtedly be many, many appearances 
before this committee, but today we are going to talk about 
your Department's budget.
    This marks, I do not know whether it is your 100th day or 
98th day, but it is close enough, and I think you are off to a 
very good start. We had a little trip that some of us took with 
you, an extended weekend to Alaska, Senator Bingaman and I. I 
think we made a few historic decisions on that trip relative 
to, it is cold in Barrow in the winter, and I ended up with 30 
pounds of muktuk by mistake because I grabbed the wrong box, 
and if you have not had muktuk lately, well, you do not know 
what you missed, but in any event it was a pleasure to have 
made that trip with you.
    Now, we have got the problem of what your budget contains, 
and obviously the last appropriation for the Interior 
Department reflected a 20-percent growth in funding, and there 
is a question of whether that was sustainable. In any event, 
this budget reflects, I think, an important balance between 
fulfilling congressional mandates and keeping the Federal 
bureaucracy in check.
    I am pleased that your budget highlights responsible 
development of energy resources on Federal lands. As you are 
well aware, we are in a serious energy crisis. We were talking 
last month about $2 gasoline. Now we are talking about $3 
gasoline, and we are talking about conservation and various 
reliefs, but reality dictates that this is a crisis, and the 
question is, what can we do to make sure that it does not grow 
worse.
    Policies in the past have put too many of our own energy 
resources off-limits and out of reach that could be available 
to this country, but with no one left to turn to, we are 
compromising our foreign policy, certainly in my opinion, by 
our continued dependence on Saddam Hussein for energy.
    We are watching our foreign imports climb to 56 percent, 
and the estimation from the Department of Energy is that it 
will be somewhere close to two-thirds within a decade or two. 
Our resources, oil, natural gas, and coal will be critically 
needed in the short term. We are going to have to address these 
problems with real solutions.
    The budget, I think, requests additional funds for the 
Bureau of Land Management to conduct resource surveys, speed up 
the leasing process, perform inspections, and we will have 
funds with the help of your Department to ensure that Americans 
will be able to reach their own resources without damage to the 
environment from our own public lands, namely access.
    Also, we recognize the importance of oil and gas production 
on the Outer Continental Shelf by increasing the budget of MMS 
and OCS leasing. In conservation programs, your budget also 
provides important funding for conservation responsibilities. 
It starts to address, again, the maintenance backlog of our 
national parks and creates innovative programs for public 
service partnerships to preserve and enhance wildlife habitat, 
and seeks to increase funding for State conservation programs.
    In conclusion, I think it is very refreshing to have you as 
Secretary, one who believes in a multiple use of public lands, 
and not necessarily locking these lands up for public access. 
It is rather exciting to have a Secretary, I think, who trusts 
local communities and seeks local input in Federal land 
management decisions and, as Secretary, encourages public-
private partnership to conserve natural resources and restore 
wildlife habitat. Again, may I congratulate you on your 100 
days. We look forward to having you serve many more.
    We are going to have three votes, and what I would like to 
do is limit opening statements to the ranking member and 
myself, unless there is any violent objection, or not too 
violent, or if you wish you may, but let us try it.
    [A prepared statement from Senator Johnson follows:]

 Prepared Statement of Hon. Tim Johnson, U.S. Senator From South Dakota

    Mr. Chairman, I am pleased that we are taking the time to hold a 
hearing today on the President's budget proposals for the Department of 
the Interior. The Administration has made some effort to maintain or 
increase funding for vital programs that demonstrate our continuing 
responsibility to remain stewards of our land and natural resources. 
However, I have some concerns over several programs that are slated for 
reductions in the budget.

                              EROS FUNDING

    During Fiscal Year 2001, the Earth Resources Observation Systems 
(EROS) Data Center in Sioux Falls, SD received $25.5 million. However, 
the Administration has proposed cutting EROS' budget within the USGS by 
$5 million next year, which is a 20 percent reduction. A reduction of 
that size could cause the elimination of 60 of the most highly-skilled, 
technical jobs at the Sioux Falls facility. That simply is not 
acceptable. Cuts of that size would be more than a 10 percent reduction 
in the workforce at EROS.
    Among EROS Data Center projects are the National Satellite Land 
Remote Sensing Data Archive and the Ohio View Project. The Ohio View 
Project collaborates with colleges and universities in developing an 
integrated access and delivery capability for satellite images. The 
National Satellite Land Remote Sensing Data Archive makes satellite 
images of the earth's surface easily usable.
    The cuts proposed for EROS are too high in comparison to other 
mapping programs in USGS. Under the Fiscal Year 2002 budget, over 60 
percent of cuts in national mapping programs will come from the EROS 
Data Center's budget. We should be increasing funding for basic 
scientific research and for programs like EROS, not cutting it.
    Not only is there a planned reduction in operations funding, but 
there is a extremely desperate need for facilities improvement and 
repair. This so-called ``high-tech'' facility is extremely overcrowded, 
there are dirt floors and unfinished areas of the building. Many of the 
faculty parking facilities are hazardous to employees and inadequate 
for the number of employees the EROS Data Center houses.

               INDIAN HEALTH SERVICES: $4.2 BILLION SHORT

    There were three things I thought I would never see when I came to 
Washington: the fall of the Berlin Wall, the end of Communism and a 
debate about how to use Federal budget surpluses. The question used to 
be, do we have enough Federal resources to live up to our obligations 
to Native Americans? We have answered that question, and the answer is 
a resounding yes. Now the question is, do we have the political will to 
uphold our Federal obligations to Native Americans? Health care is the 
pinnacle of these Federal obligations and we need to take the first 
step in fulfilling them.
    Unfortunately, past history has shown that Indian Health Care is 
not a priority for the United States. The Indian Health Care Service 
has been historically underfunded. I, along with Senator Daschle and 
others, offered an amendment to the Budget Resolution. This amendment 
was not included during the conference negotiations, thus forcing 
Indian Health Care to fight for funding with all of the other health 
care programs.

                            TRIBAL COLLEGES

    In my state alone there are eight tribal colleges. These schools 
have served as the backbone of tribal higher education. Many of the 
Native Americans across the country are not what you would call 
``mainstream'' students. The students attending tribal colleges are 
older, many are already married and have families of there own. More 
``conventional'' schools are not as prepared to address the unique 
cultural and traditional needs of most Native American men and women 
attending tribal colleges. Without these institutions, many native 
people would not be able to access the education they so rightly 
deserve.
    In the history of the tribal college system, there has never been a 
year where the colleges have received adequate funding. In fact, quite 
the opposite. Tribal colleges continue to be some of the most poor 
institutions of higher education. Despite their miserable funding 
streams, we have seen remarkable and creative uses of these sparse 
funds. Per dollar, tribal colleges are the most successful institutions 
I have seen throughout my 15 years of federal public service.
    The Tribal Colleges and Universities were funded at only $38 
million for Fiscal Year 2001. This year the tribal colleges enjoy a $1 
million increase in the President's proposed budget. However, this 
funding increase will still not result in the full and adequate funding 
of $6,000 per student. We are making progress, even though it is not 
enough. We need to be able to fully fund higher educational 
opportunities for our Nation's First Americans.

                              PILT FUNDING

    I also have concerns about the level of funding for the Payment in 
Lieu of Taxes Program (PILT). PILT is designed to provide compensation 
to local communities that have significant amounts of federal land in 
their counties. Because these lands are not subject to property taxes, 
these funds are critical to the budgets of local governments that 
provide many valuable services such law enforcement and sanitation. 
PILT has been chronically underfunded and rural states like South 
Dakota have difficulty providing basic public services on areas of 
federal land. Congress should live up to its commitment and fully fund 
PILT.
    The CARA legislation that was approved by this committee last year 
would have fully funded PILT over the next fifteen years. 
Unfortunately, this legislation was not enacted but assurances were 
made that programs like PILT would receive increased priority in the 
future. Instead, the President's budget only allocates $150 million for 
PILT funding, $50 million less than last year's level. Moreover, this 
is more than $200 million less than the authorized level of $375 
million. We are going in the wrong direction and must find ways to 
adequately fund PILT, so that the needs of rural areas are met.
    Mr. Chairman, I hope that we can work together with the Interior 
Department on the concerns I have raised and find constructive 
solutions so that the priorities of rural America and Native Americans 
are addressed.

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Bingaman. Thank you very much, Mr. Chairman. 
Secretary Norton, welcome to the committee. I look forward to 
the hearing. Let me mention three ares that I am particularly 
interested in, and I am sure you will address these, and we 
will have a chance to ask questions.
    You have indicated the Land and Water Conservation Fund is 
one of your top priorities. I have worked with Senator 
Murkowski, Senator Landrieu, and various others on this 
committee on the CARA legislation last year. My concern with 
the budget is that, as I read it, the administration's proposal 
does not provide for full funding of the Land and Water 
Conservation Fund, at least as it has been contemplated by most 
of those of us who support it.
    As I understand it, the President is proposing to broaden 
the uses of the Land and Water Conservation Fund on the Federal 
side to allow two new local and private grant programs, neither 
of which appear to have anything to do with Federal land 
acquisition.
    In addition, the States would be allowed to use the State 
Land and Water Conservation Fund moneys to fund not only the 
traditional State open space and outdoor recreation purposes, 
but various other programs, the wildlife conservation program, 
endangered species program, restoration and migratory bird 
habitat conservation.
    Those are all worthy programs, but a few years ago the 
previous administration submitted a similar proposal to claim 
credit for fully funding the Land and Water Conservation Fund 
by including several non-related programs within the funding 
definition, and that proposal was very severely criticized by 
the chairman and various others on this committee. I hope that 
we are not seeing that same effort to dilute the purposes of 
the Land and Water Conservation Fund here.
    Let me also mention that, as far as I can tell, the various 
conservation programs, with the exception of State Land and 
Water Conservation Funding, all the others are proposed for 
cuts at the appropriations level in the budget, and if I am 
wrong about that, I would be interested in being corrected.
    Let me also state my concern about the proposed 25 percent 
cut in the PILT program, the payment in lieu of taxes program. 
That is very important program for my State and for many 
Western States. We finally got it appropriated at the $200 
million level this year and, as I understand the proposal, it 
is to cut $50 million from the current PILT funding level. That 
concerns me.
    One other area that I am concerned about are the proposed 
cuts in the Geological Survey budget. Under the budget request, 
the Geological Survey would receive $69 million less than the 
current year funding.
    I understand that the agency has been instructed to make 
further program reductions of about $25 million above and 
beyond the amounts that are reflected in the President's 
proposal, so that is--the Geological Survey, of course, is one 
that is very important to an arid State like mine, where water 
quality assessments that are done reduce stream-gauging and 
mapping activities. USGS biological, fire science, and climate 
change research, those are all very important ongoing 
activities that I would hate to see us cut.
    So those are issues of concern. I look forward to your 
testimony, and hope we can have a chance to talk about them.
    The Chairman. Thank you very much. Please proceed.

  STATEMENT OF HON. GALE NORTON, SECRETARY, DEPARTMENT OF THE 
INTERIOR, ACCOMPANIED BY ANN KLEE, COUNSELOR TO THE SECRETARY, 
          AND JOHN TREZISE, DIRECTOR, OFFICE OF BUDGET

    Secretary Norton. Mr. Chairman and members of the 
committee, it is a pleasure to join you today to talk about the 
Department of the Interior's budget proposal. With me are Ann 
Klee, who is counselor to me, and John Trezise, who is Director 
of the Office of Budget. This committee obviously plays a 
crucial role in dealing with the core issues for the Department 
of the Interior's mission. I look forward to working closely 
and collaboratively with you as we face issues over the coming 
years.
    During my confirmation hearings, I spoke with you about 
what it is to be a compassionate conservative and a passionate 
conservationist, and how those are complementary descriptions. 
This budget similarly fulfills those same kinds of things. It 
is compassionate in the way that it protects our Nation's 
environment, and conservative in how it spends taxpayer's 
money, and involves local people in the decisionmaking process.
    Overall, the 2002 budget is $10 billion, including $9.1 
billion that is within the Interior and related agencies 
appropriations bill, and approximately $820 million funded in 
the energy and water development bill. This is the second 
largest budget in the history of the Department of the 
Interior. As for many agencies, the 2001 fiscal year was a 
spike. If we go back further and compare ourselves with the 
2000 fiscal year, which was much more in keeping with the 
Department's history, this budget represents a 16-percent 
increase above the 2000 level.
    Last year's budget was a 20-percent increase above that 
level, and so this is something that is still a significant 
increase from where the Department has operated historically, 
even though there is a bit of a decline from last year's 
budget.
    The Department's budget has grown rapidly over the last 3 
years, outpacing inflation and the rise of discretionary 
spending. During that period, Interior's budget grew 23 
percent. The 2002 budget contains this growth while still 
providing robust spending. I would like to highlight some of 
the major initiatives in this budget.
    The first of these is the Land and Water Conservation Fund. 
With our proposed $900 million investment, the executive branch 
for the first time meets its commitments to the States. This 
funding level provides $450 million for States and $450 million 
for Federal activities.
    Our proposal gives the States a fourfold increase in 
funding to address their high priority needs. States will be 
able to decide for themselves how to allocate funding for 
recreation planning and development, wildlife and wetlands 
conservation, and protection and recovery of endangered 
species.
    This proposal broadens the uses for which that fund is 
available, but it is certainly in keeping with what we have 
heard from the States about what they would like to see. The 
point is to give the States greater flexibility to meet the 
needs of their citizens through their own decisionmaking and 
prioritization processes while promoting important 
environmental goals, including endangered species conservation 
and wetlands and waterfowl habitat restoration.
    Our new approach to the Land and Water Conservation Fund 
also includes $50 million for a landowner incentive program, 
working through the States, and $10 million in private 
stewardship grants to support local, voluntary conservation 
efforts. The landowner incentive concept is one based on what 
the President established in the State of Texas. It provides 
technical assistance and positive incentives to landowners to 
protect rare species and their habitats.
    With this new approach, we will have four tools available 
to the States to address endangered species conservation, the 
Land and Water State grants that we have just discussed, the 
landowner incentive program, private stewardship grants, and 
the cooperative endangered species Conservation Fund, which is 
at more than double the year 2000 funding level.
    With the $390-million request for Federal land acquisition, 
a new emphasis will be placed on input and participation by 
affected communities. We will pursue easements and land 
exchanges as appropriate mechanisms for attempting to protect 
lands, and we will certainly continue to have land acquisition 
as one of our tools. We will try to use that primarily where 
there is broad local consensus and support of that approach.
    One of the important objectives for the President is 
dealing with the National Park Service backlog. For too long we 
have seen attention given to the high visibility issues, and we 
have not paid as much attention to the day-to-day needs of the 
parks. We propose to deal with the $4.9 billion backlog in 
parks maintenance over the next 5 years. This year's budget 
will provide $440 million, an increase of $100 million, to 
maintain historical structures, visitor facilities, safe 
trails, clean waters, and well-kept campgrounds.
    Also included for the National Park Service is $50 million 
for the natural resource challenge. This is a 66 percent 
increase over the $30 million that was appropriated last year. 
This program will assess the conditions of the parks and fund 
on-the-ground restoration work, including the management of 
invasive species.
    The third major initiative in this budget is Indian 
education. During the campaign, the President pledged to leave 
no child, including no Indian children, behind. The budget 
proposes a two-pronged approach to bettering Indian education 
by improving the physical facilities in which children learn 
and enhancing the learning that occurs in our classrooms.
    I was very disappointed to find that of the 4,500 buildings 
in the BIA's school system, one-fifth are more than 50 years 
old. Serious deficiencies pose real threats in many of the 
other buildings. Our budget includes $293 billion for education 
construction and maintenance, including $128 million to 
entirely replace school buildings at six sites.
    The fourth initiative in this budget addresses the need to 
balance land use with conservation. The Department manages 1 
out of every 4 acres of land in this country. Management of 
those lands plays an important role in ensuring domestic and 
energy security, while at the same time providing important 
opportunities for public recreation and for conserving 
environmental values.
    In order to accomplish all of those objectives, we need to 
ensure that we are taking actions in the best possible places, 
and that requires planning. We request an increase of $7 
million to accelerate land use planning. This will ensure that 
there is public involvement in our decisions on the appropriate 
mix of activities.
    We will be able, through the Bureau of Land Management, to 
assess, revise, or amend 42 existing or new plans. The budget 
also includes $15 million to increase the BLM mineral 
activities, and a $7-million increase for Minerals Management 
Service's work in the Gulf of Mexico.
    Before concluding my remarks, I would like to address one 
issue of particular concern, and that is the fire program. We 
have been working very hard to get that program up to speed to 
address fire dangers in the coming year. Unfortunately, this is 
the second driest year in the Bureau of Reclamation's records 
for the Pacific Northwest region. In this second driest year in 
100 years, we know that we are going to see serious dangers 
ahead.
    This is a very daunting task. We are trying to move forward 
with hiring fire fighters at a very rapid pace, and also 
clearing out the excessive undergrowth and so forth in order to 
reduce fuels. This is something that has to be done 
appropriately. We want to push forward as quickly as possible, 
but we want to assure that prescribed burns only occur where 
all of the situations are appropriate for them.
    Another significant issue that I want to mention to you is 
trust reform. This is another area of grave concern to us. We 
want to ensure that Indian assets are appropriately managed. 
This is one where we know that very significant changes need to 
take place. We are working to ensure that those happen.
    We have reached agreement with Judge Lamberth on the 
appointment of a court monitor who will actually be within the 
Department, and monitoring what we do on a day-to-day basis. We 
think this is a positive development so that both the court and 
the Department will have information from an objective source 
about our efforts.
    The budget seeks an additional $12 million to address 
concerns regarding the depth of trust management problems 
within BIA.
    Well, thank you very much for providing me this opportunity 
to present our budget, and I look forward to working with you 
as we see this through to completion.
    [The prepared statement of Secretary Norton follows:]

          Prepared Statement of Hon. Gale Norton, Secretary, 
                       Department of the Interior

    I am pleased to be here today before the Committee on Energy and 
Natural Resources to present the fiscal year 2002 budget for the 
Department of the Interior. I appreciate the opportunity to highlight a 
number of important initiatives and to answer questions that you might 
have.

         CONSULTATION, COMMUNICATION AND COLLABORATION IN THE 
                        SERVICE OF CONSERVATION

    For several months, I've been explaining what it is to be a 
compassionate conservative and a passionate conservationist. The 
Department's 2002 budget exemplifies these concepts. It's a budget 
that's compassionate in the way it protects our environment and 
conservative in how it spends taxpayers' money and gives local people 
more control over the lands they know and the lands they love.
    This budget supports our efforts to conserve and manage the great 
wild places and unspoiled landscapes of this country, that are the 
common heritage of all Americans. Using consultation, communication, 
and collaboration, we will forge partnerships with interested citizens 
and ensure success in our effort to conserve America's most precious 
places. We can achieve this while maintaining America's prosperity and 
economic dynamism, respecting constitutional rights, and nurturing 
diverse traditions and culture.

                            BUDGET OVERVIEW

    The budget outlines actions that make the government more 
accountable for how it spends taxpayer dollars and for achieving 
results. This budget emphasizes the importance of working in 
partnership with States, local communities, and the private sector. The 
budget pays down our national debt, sets aside a contingency fund for 
future needs and emergencies, and provides broad, fair, and responsible 
tax relief.
    The 2002 budget for the Department of the Interior proposes 
important initiatives that fulfill the President's commitments and 
support the goals that he and I share. Within our budget you will find 
increased resources to support high priorities, including conservation 
of America's wild places through innovative environmental partnerships. 
The budget proposes the revitalization of the State portion of the Land 
and Water Conservation Fund, and the establishment of new landowner 
incentive and stewardship programs to help individuals protect 
imperiled species, enhance habitat, and conserve fragile land. The 
budget supports our shared goals to eliminate the National Park Service 
backlog over five years and improve natural resource management. The 
2002 budget seeks resources that will enable us to achieve real results 
for every Indian child and upholds the President's commitment to leave 
no child behind, by investing in repair and replacement of Indian 
schools and increasing funding for school operations.
    The budget also funds five recently adopted Indian land and water 
settlements, maintains a high level of funding to prepare for and 
suppress wildfire and to treat forests and range lands to reduce fire 
danger, and maintains historically high levels of funding for 
operational programs at national parks, wildlife refuges, and public 
lands. The budget also proposes management reforms that respond to the 
President's challenge to create a bureaucracy that is more flexible, 
creative, and responsive; to bring decision making closer to the 
customer; while continuing our emphasis on front-line service.
    The 2002 budget for the Department of the Interior is $10.0 billion 
in appropriations, a funding level that is $345.7 million, or 3.4 
percent below the 2001 enacted level. To give perspective to this 
comparison, it is important to note that 2001 appropriations reflected 
extraordinary growth of 20 percent in funding over 2000 levels, and 
included substantial emergency and one-time appropriations that need 
not be continued in 2002. When compared to historical funding levels, 
the 2002 budget request is $1.4 billion or 16 percent higher than 2000 
and $1.9 billion or 23 percent higher than 1999. This budget is the 
second highest in the history of this Department.
    For Department programs that are under the jurisdiction of our 
authorizing committees, the request for annual appropriations is $9.1 
billion, a decrease of $348.8 million below the 2001 level. When 
compared to historical funding levels, the 2002 budget is $1.4 billion 
or 17.6 percent higher than the 2000 level.

                   BUILDING CONSERVATION PARTNERSHIPS

    The Department of the Interior has a long and proud history of 
working in partnership with State, local, and private landowners in the 
conservation of natural resources. The 2002 budget builds on this 
capacity and provides new resources and tools to States, communities, 
organizations, and individuals to take leadership roles in finding 
innovative ways for conservation in cooperation with the Federal 
government.

A Flexible LWCF State Grant Program
    The Land and Water Conservation Fund was created in 1965 to assure 
that revenues from offshore resources that belong to all of the people 
of the United States are used to develop and preserve recreation and 
conservation benefits. The LWCF has made an outstanding contribution 
over the last three and one-half decades by protecting America's land 
heritage and providing recreational opportunities. However, the promise 
for full funding that was made in the authorizing legislation has not 
been kept. From 1965 to 1995, funding for State grants averaged only 
$108 million a year and no State grant funds were appropriated for 
years 1996 through 1999.
    The 2002 budget keeps the promise for a fully funded Federal-State 
partnership, requesting the authorized level of $450.0 million for 
State grants, an increase of $359.7 million over the 2001 level of 
$90.3 million. Amounts that would be allocated to States, the District 
of Columbia, and the Territories are significantly increased, expanding 
every State's capability to support our shared goals for conservation. 
The budget proposes to make $10.0 million available for competitive 
grants to Tribes, funding tribal participation in this program for the 
first time.
    The 2002 budget also proposes to revitalize the State grant program 
both by increasing the resources available and by expanding the scope 
of activities eligible for funding. It allows States flexibility to 
determine their own priorities in recreation and conservation, and 
encourages program innovation. Conservation of wildlife and habitat has 
become a major component of conserving and enjoying our natural 
resources. In this broadened State grants program, States can continue 
to use funding for traditional recreational venues such as ball fields 
and parks. They will also be able to use this funding to protect and 
enhance habitat for fish and wildlife. The updated LWCF State grant 
program incorporates the purposes of more narrowly-focused grant 
programs that support goals including: urban park recreation and 
recovery, wildlife conservation and restoration, migratory bird habitat 
conservation, and the conservation of habitat for threatened and 
endangered species. To enhance collaboration the budget allows States 
to partner with non-governmental entities to plan State-wide 
recreational needs, enhance lands that have already been acquired, and 
to acquire easements.
    The 2002 budget proposes $100.5 million for three Fish and Wildlife 
Service programs to further facilitate conservation partnerships. The 
request includes: $54.7 million for candidate conservation, threatened 
and endangered species recovery, habitat conservation planning, and HCP 
implementation through the Cooperative Endangered Species Conservation 
Fund; $14.9 million for wetlands and migratory bird conservation 
activities through the North American Wetlands Conservation Fund; and 
$30.9 million to enter into partnerships with private landowners for 
conservation purposes through the Partners for Fish and Wildlife 
program.

Facilitating Local and Private Conservation
    The 2002 budget includes two new programs to promote conservation 
in the United States. The Fish and Wildlife Service budget proposes 
$50.0 million to establish a Landowner Incentive program for grants 
that are competitively awarded and cost shared. Grants provided to 
States, the District of Columbia, Territories, and Tribes will help 
landowners protect and manage habitat, while continuing to engage in 
traditional land use practices.
    This initiative is modeled on the successful private lands 
enhancement program in Texas. This program provides technical 
assistance to landowners that want to consider wildlife needs in their 
land use practices. Texas wildlife biologists work with private and 
public land managers in the preservation and enhancement of habitat for 
important wildlife species. The budget also recognizes the importance 
of private citizens and non-governmental groups in the protection and 
conservation of natural resources. The 2002 budget includes $10.0 
million for a new Private Stewardship grants program that will support 
individuals and groups engaged in voluntary land and wildlife 
conservation efforts. This funding will support local community efforts 
to protect imperiled species, enhance habitat for fish and wildlife, 
and conserve important resources.
    In support of our collaborative and consultative approach, our 2002 
budget proposes $259.1 million for Federal land acquisition projects 
that focus on the use of alternative and innovative conservation tools 
such as easements, purchases of development rights, and land exchanges. 
We have made sure that these proposed acquisitions include the input 
and participation of the affected local communities. For example, the 
Bureau of Land Management budget proposes $2.0 million to acquire 788 
acres of conservation easement interests and 100 acres of fee simple 
interests to protect scenic and recreational values in the Lower Salmon 
River Area of Critical Environmental Concern in Idaho. Acquisition of 
these precious resources has the support of the Friends of the Lower 
Salmon and the Idaho Department of Fish and Game. By using easements, 
we can leave the lands in private ownership, while protecting the 
breathtaking scenery of the river canyon.

                     PRESERVING OUR NATIONAL PARKS

    America is a land of singular beauty and Americans are proud of the 
many natural treasures within our shores. The President and I believe 
that a top priority of the Department of the Interior is the 
conservation of these treasures. The 2002 budget proposes increased 
funding to conserve the national treasures in our national parks. The 
2002 budget includes an increase of $61.1 million in appropriations, 
coupled with targeted recreation and concession fees for a total of 
$439.6 million to eliminate the maintenance backlog that is an obstacle 
to resource protection. We are also providing $20.0 million to restore 
natural resources, including removal and management of invasive 
species, in national parks. This initiative will help to restore our 
parks and ensure a positive legacy of protecting our cultural, natural, 
and recreational treasures for Americans today and in the future.

Eliminating the NPS Maintenance Backlog
    Just as the establishment of the National Park Service in 1916 was 
an innovative idea, so too are we challenged to devise new and 
innovative ideas for the management of these national treasures. Today, 
the Park Service faces challenges that could not have been imagined by 
the early managers of the park system. More than 285 million people 
visit the parks annually; visitation this year at Yellowstone National 
Park alone will exceed the visitation of the entire system in 1916. As 
the park system ages and visitation increases, the parks' 
infrastructure is stressed and showing the effects of inadequate 
maintenance funding.
    It is estimated that the current deferred maintenance backlog is 
roughly $4.9 billion, including $2.2 billion that is attributable to 
facility maintenance needs funded through Interior and Related Agencies 
annual appropriations. The 2002 budget proposes funding to begin to 
reverse the decline in the condition of facilities in parks, requesting 
$439.6 million to make significant progress in eliminating the $2.2 
billion facilities-based maintenance backlog. Annual funding will 
include $339.6 million in appropriations and $100.0 million in 
recreation and concession fees. At this funding level the Park Service 
will address the $2.2 billion deferred maintenance backlog over five 
years.
    The Park Service will undertake projects in the backlog in an 
orderly process using a five-year plan that prioritizes first the 
completion of health and safety and resource protection projects. 
Projects that will be completed with this funding are diverse, 
including for example: replacement of deficient guardrails at the Blue 
Ridge Parkway; replacing a failing water line at Petrified Forest 
National Park; and conducting critically-needed preservation work at 
the Lincoln Memorial in Washington, D.C.
    The balance of the backlog, $2.7 billion, is associated with road, 
bridge, and transportation projects funded through the Transportation 
Equity Act for the 21st Century. The 2002 budget defers decisions on 
increased funding for these transportation-related projects and assumes 
the existing funding level of $165 million annually through 2003, as 
TEA-21 is not subject to reauthorization until 2004.

The Natural Resource Challenge
    The 2002 budget proposes $49.5 million for the National Park 
Service Natural Resource Challenge, a program focused on preservation 
and restoration of the rich natural heritage in the National Park 
System. For this third year of the program, the Park Service is 
requesting an increase of $20.0 million in order to improve knowledge 
of plants, animals, and ecosystems in park units. This infusion of 
resources will increase the Park Service's capability to understand the 
potential impacts of habitat destruction, invasive species, pollution, 
and pressures caused by increasing visitation. The Park Service will 
continue to work collaboratively with the U.S. Geological Survey and 
local universities in order to develop strategies to ameliorate threats 
to natural resources, and implement solutions to resource problems.

              KEEPING OUR COMMITMENTS TO AMERICAN INDIANS

    One top priority concerns the special responsibilities of the 
Secretary of the Interior with regard to American Indians. The 
President and I have committed to uphold the unique government-to-
government relationship with Tribes. There is much that needs to be 
done and that we can do, in partnership with our Nation's Indian 
Tribes, to improve conditions and provide a more hopeful future. The 
2002 budget includes $2.2 billion for BIA, an increase of $65.9 million 
or three percent over the 2001 level, and a 17 percent increase over 
the 2000 level. The budget contains substantial funding for Native 
American initiatives and builds on increases provided last year for 
school construction, Indian education programs, and trust management 
improvements.

Building Better Schools in Indian Country
    President Bush has pledged to ``leave no child behind.'' To 
accomplish the goal, we must improve the schools that serve nearly 
50,000 children. The BIA, through its management of 185 Indian schools, 
is one of only two agencies in the Federal government directly 
responsible for an elementary and secondary school system. In 2002, BIA 
will fulfill the President's commitment to improve education in America 
by implementing a two-pronged approach improving education facilities 
and enhancing school operations.
    One-fifth of the buildings in the BIA school system are over 50 
years old, and half are more than 30 years old. Due to age and 
inadequate maintenance, many schools have serious deficiencies that 
pose real threats to the health and safety of students and faculty and 
make it difficult for students to learn. These schools have leaking 
roofs, peeling paint, overcrowded classrooms, and inadequate heating, 
cooling, and ventilation. The 2002 budget includes $292.5 million for 
education construction, including $122.8 million to construct 
replacement buildings at six schools and $5.0 million for planning and 
design of future replacement schools.
    The six schools slated for funding in 2002 are the highest priority 
based on BIA's priority ranking list. Funding will be used to replace: 
educational facilities at the Polacca Day School in Arizona and the 
Ojibwa Indian School in North Dakota; school and dormitory facilities 
at the Pascal Sherman Indian School in Washington; dormitory facilities 
at the Holbrook Dormitory in Arizona and the Wingate Elementary School 
in New Mexico; and new classroom facilities at the Santa Fe Indian 
School in New Mexico.
    The education construction budget also includes $161.6 million for 
facilities improvement and repair, an increase of $13.6 million or 
eight percent over the 2001 funding level. This proposal will fund 
deferred and annual maintenance needs, major and minor repair projects 
to address health and safety concerns, and program deficiencies at 
educational facilities. The President has established a goal to 
eliminate the current repair and maintenance backlog by 2006. With this 
funding, we will make significant progress towards achieving that goal.

Learning: A Life-Long Journey
    Providing safe schools is only the first step in improving 
educational opportunities for Indian children. One of BIA's strategic 
goals is to provide quality educational opportunities from early 
childhood through adulthood, helping to instill a desire for life-long 
learning. The 2002 BIA school operations budget proposal of $504.0 
million includes a program increase of $9.1 million. This funding will 
be used at schools operated by BIA, as well as at schools operated 
under contracts or grants to Tribes and tribal organizations, to ensure 
that schools maintain accreditation; have access to textbooks, 
computers, and other vital learning tools; have adequate teaching 
staffs; and can provide transportation. Individual schools and school 
boards at the local level make the final decisions on how best to use 
these funds.
    The 2002 budget maintains funding of $12.2 million for the early 
childhood development program, including the family and child education 
program and the therapeutic residential model program. The family and 
child education program involves parents in the critical early stages 
of their children's education, improves adult literacy, and teaches 
parenting skills that help improve children's readiness for school. The 
therapeutic residential model program is an intensive, hands-on program 
that focuses attention on Indian youth attending boarding schools and 
helps them to achieve positive changes in attitude, behavior, and 
academic performance.
    In addition, the 2002 budget proposes $39.1 million for operation 
of the 25 tribally controlled community colleges. This is an increase 
of $1 million for these colleges that serve a vital role in furthering 
Indian education beyond the high school level and building critical job 
skills.

Resolving Land and Water Claims
    Settlements of land and water disputes resolve long-standing claims 
made by Indian tribes and are the outcome of negotiations between the 
Tribes, the Federal government, and other interested parties. The 
settlements reflect the Federal government's commitment to fulfill its 
promises to the Indian community. The 2002 budget includes $60.9 
million, an increase of $23.5 million, to fund ongoing settlements and 
five recently authorized settlements. The budget requests: $6.3 million 
to complete the Federal commitment for direct tribal payments in the 
U.S. v. Michigan Great Lakes joint Tribal-State-Federal consent decree 
on fishery resources; $6.0 million for the Torres-Martinez settlement 
in California; $2.0 million for the Santo Domingo settlement in New 
Mexico; $5.0 million for the first payment for the Shivwits Band of the 
Paiute Indian Tribe of Utah; $8.0 million for the Colorado Ute 
settlement to settle claims on the Animas and La Plata Rivers in 
Colorado. The budget will continue to fund the Rocky Boy's settlement 
at $8.0 million and the Utah Ute settlement at $24.7 million.

Fulfilling Trust Responsibilities
    For more than 150 years, the Department has been responsible for 
managing assets in trust for American Indian Tribes and individual 
Indians. The management of trust funds and administration of leasing 
activities continues to be an important responsibility and is an 
essential service to foster opportunities for Tribes and individual 
Indians. The 2002 budget upholds commitments made to institute sweeping 
changes in the management of trust assets. Trust management reform 
efforts focus on correcting deficiencies; improving and implementing 
new trust management and financial systems; and sustaining 
accomplishments to ensure that trust management problems do not recur.
    A total of $110.2 million is requested for the Office of the 
Special Trustee in 2002, including $73.0 million for trust management 
improvements under the Department's High Level Implementation Plan. 
Activities that will continue in 2002 under HLIP include: replacing 
BIA's land records system with the Trust Asset and Accounting 
Management System; reforming the probate and appraisal program; curing 
decades-old records management deficiencies; providing training on 
trust systems; and developing comprehensive and consistent policies and 
procedures. Continued implementation of these management reforms will 
resolve decades old trust fund management issues, improve 
accountability, and help to meet the Department's trust 
responsibilities to Tribes and individual Indians.
    The 2002 budget includes $11.0 million for the fourth year of the 
Indian Land Consolidation program to expand land acquisition activities 
and continue implementation of the Indian Land Consolidation Act 
Amendments of 2000. This will support activities including: 
consolidating fractionated interests into more useable and leasable 
parcels of land; reducing the administrative burden associated with 
fractionated ownership; and reforming probate by establishing uniform 
rules for the descent and distribution of interests in allotted lands.
    The 2002 budget proposes $118.4 million for BIA trust-related 
services. This includes an increase of $12.0 million for additional 
staff and resources for critical trust services programs that have been 
historically under funded and understaffed, such as real estate 
services, probate, appraisals, and land titles and records programs. 
These increases will help BIA to continue to improve performance in 
meeting responsibilities in managing revenue-generating lands held in 
trust for Tribes and allottees. The program increases will further 
timely and accurate processing of real estate transactions and 
appraisals; increase capability to keep pace with growing probate 
workloads; help keep land records current; provide additional resources 
for tribal courts to address the increased court caseload; support 
background investigations of employees and contractors who manage trust 
assets and records; improve management of natural resources on trust 
lands; and improve information resource management and trust records 
security.

                    BALANCING USE WITH CONSERVATION

    Federal lands administered by the Department of the Interior play 
an important role in ensuring domestic energy security, supporting 
economic development, and providing important opportunities for the 
public to experience the Nation's natural heritage. As stewards of 
public lands and resources, The Department must balance the development 
of mineral and energy resources with environmental protection. The 2002 
budget proposes program increases totaling $22.1 million for BLM and 
$14.7 million for MMS to support this balanced approach.

Onshore Energy and Minerals Programs
    BLM manages leasing and development for energy and minerals on 
onshore lands that produce approximately five percent of annual 
domestic oil production and eleven percent of domestic natural gas 
production. BLM's management of energy and mineral resources, including 
50,000 oil and gas leases, are an important part of the Nation's energy 
program.
    The 2002 budget proposes a program increase of $15.0 million for an 
expanded BLM energy and mineral program. This proposal includes $5.0 
million for BLM to identify and evaluate oil and gas resources and 
reserves on public lands as required by the Energy Policy and 
Conservation Act of 2000. BLM will work with the Department of Energy, 
U.S. Forest Service, and U.S. Geological Survey to survey onshore 
reserves. An increase of $5.0 million will be used to support another 
lease sale offering in the National Petroleum Reserve Alaska and to 
initiate planning and associated studies in the 1002 area of the Arctic 
National Wildlife Refuge to support future oil and gas lease sales, if 
authorized by Congress. The request includes an additional $2.0 million 
to increase leasing and processing of permits to drill for coalbed 
methane, and $3.0 million to increase coal leasing and other mineral 
development on Federal and Indian lands, and to address increased 
workload for land and realty processing of rights-of-way.

Consensus Building with Land Use Planning
    BLM land use plans govern the management of pubic lands and are the 
primary tool for building consensus and incorporating public comments 
in our land and resource management programs. Many of the plans now in 
use were completed prior to 1989 and need to be updated to reflect 
current conditions. The 2002 budget includes an increase of $7.1 
million to update plans in order to facilitate more collaborative and 
better decision-making.

Offshore Energy Programs
    MMS oversees oil and natural gas production in the Outer 
Continental Shelf. OCS activities account for approximately 26 percent 
of annual domestic oil production and 28 percent of domestic natural 
gas production. To meet the demand for increasing energy production, 
the budget includes an increase of $7.4 million for MMS' Gulf of Mexico 
leasing and regulatory program. This increase will allow MMS to be 
responsive to requests for services in processing permits and the 
review of development plans. An additional increase of $7.3 million is 
proposed to acquire a management system that is necessary to support a 
royalty-in-kind program for oil and gas production on Federal lands. 
Where favorable conditions exist, taking royalties in kind as an 
alternative to the traditional method of collecting royalties in value 
is an innovative approach that may potentially reduce administrative 
burdens.

                             MANAGING FIRE

    The lessons learned in the 2000 fire season laid the groundwork for 
our current efforts in the Wildland Fire program. As a result of our 
past experience, we are focusing on building capacity in preparedness; 
implementing an expansive fuels treatment program that targets the 
wildland urban interface; ensuring an adequate fire suppression program 
at the Federal and local levels; and conducing rehabilitation of burned 
areas to prevent additional loss and promote land health. In 
conjunction with the U.S. Forest Service, the Department continues to 
make significant progress in the implementation of the National Fire 
Plan. Working in partnership with the Western Governors' Association, 
National Association of Counties, Tribes, other Federal partners, and 
non-governmental organizations, the Department and the Forest Service 
are developing a plan of action and are engaged in designing a ten year 
strategy for treatment in the wildland urban interface to protect 
communities from the threat of fire.
    The 2002 budget funds the wildland fire program at $658.4 million, 
or more than double historical levels for this program. Although this 
proposal is $318.7 million lower than the 2001 level, a large part of 
this decrease reflects the elimination of an emergency contingency fund 
of $199.6 million and $26.8 million in one-time costs for equipment 
purchases and a specific, targeted research project. The 2002 
President's budget continues funding for critical fire program 
components and includes a $5.6 billion national emergency reserve that 
will be available to pay for emergency needs, including higher than 
average wildland fire costs, if needed.
    The 2002 budget funds preparedness at $280.8 million. This funds 
readiness at $252.0 million, or 95 percent of the amounts included in 
the National Fire Plan, adjusted for fixed costs. This level combined 
with resources expected to be available from 2001 provides sufficient 
funding to maintain full readiness in 2002. The budget continues 
funding for the fire science program at $8.0 million and includes a 
proposal to fund important research conducted by the U.S. Geological 
Survey within this amount. A total of $19.8 million is budgeted for 76 
high priority deferred maintenance and capital improvement projects.
    The 2002 budget proposes to fund fire operations at $367.6 million. 
Suppression costs are funded at the ten-year average of $161.4 million 
including an additional $8.3 million to increase fire control 
capabilities. The 2002 budget continues funding for hazardous fuels 
reduction at $186.2 million including $111.3 million for fuels 
reduction in the wildland urban interface. The budget also funds 
rehabilitation at the ten-year average of $20.0 million. The budget 
reflects a reduction of $84.8 million from 2001 levels, reflecting a 
reduction in funding amounts that will be targeted to rehabilitate 
areas burned in the 1999 and 2000 fire seasons.
    Lastly, the budget provides $10.0 million for technical assistance 
and support for rural fire districts. Funding provided to these 
volunteer fire departments is critical, as they are often the first 
line of defense in protecting wildland urban interface areas threatened 
by fire.

  OPERATION OF NATIONAL PARKS, NATIONAL WILDLIFE REFUGES, AND PUBLIC 
                                 LANDS

    The 2002 budget continues funding for the operational programs in 
the National Park Service, Fish and Wildlife Service, and Bureau of 
Land Management at historically high levels, maintaining significant 
funding increases provided in prior years and allocating an additional 
$69.1 million for uncontrollable cost increases. Funding for these 
operational programs in 2002 totals $3.2 billion, an increase of 2.4 
percent over 2001 levels, and an increase of 12.7 percent over 2000 
levels.

                        RESTORING THE EVERGLADES

    The President's 2002 budget invests significant resources in the 
long-term restoration of the South Florida ecosystem, requesting $37 
million for the Corps of Engineers and Department for implementation of 
the Comprehensive Everglades Restoration Plan authorized by the Water 
Resources Development Act of 2000. An additional $183 million is 
proposed, government-wide, to continue ongoing construction, research, 
and land acquisition activities associated with restoration of the 
ecosystem. The South Florida/Everglades ecosystem is a national 
treasure. Restoration of the Everglades continues to be a top priority 
for the Department.
    The Department's 2002 budget includes $122.8 million for South 
Florida/Everglades restoration activities. The 2002 budget proposes an 
increase of $5.7 million for CERP implementation to provide technical 
assistance and expertise in the planning, design, construction, and 
adaptive assessment of restoration projects constructed by the Corps. 
The budget includes $27.4 million for acquisition to support 
restoration, including $15.0 million for a matching grant to the State 
of Florida. A total of $39.2 million is proposed for the Modified Water 
Deliveries project.

                       ENDANGERED SPECIES LISTING

    The 2002 budget proposes a total of $8.5 million for the endangered 
species listing program, a 34 percent increase over 2001, and a 37 
percent increase over 2000. This increase will help return balance to 
the listing program, enabling the U.S. Fish and Wildlife Service to 
protect species that are in decline, respond to citizen petitions to 
list new species and designate critical habitat for species that are 
already listed.
    However, because a flood of court orders requiring FWS to designate 
critical habitat for hundreds of species threatens to consume the 
entire listing budget in 2002 as it has in 2001, the budget increase 
will not be enough by itself to restore this balance. In fact, after 
complying with existing court orders to designate critical habitat for 
2001, FWS does not have any remaining resources or staff to place new 
species on the list of threatened and endangered species or to respond 
to citizen petitions to list new species. In short, because of the 
lawsuits, FWS currently does not have an effective listing program.
    The prior Administration requested Congress place a cap on the 
listing program beginning in 1998, and this Administration is asking 
Congress to continue the cap. The reason for the cap is to ensure that 
FWS can maintain an overall endangered species program that not only 
includes listing new species and designating critical habitat but also 
undertaking recovery programs, working with States, landowners, and 
others to conserve species before they require listing, consulting with 
Federal agencies where required by the Act, and delisting species when 
they have recovered. Absent the cap, courts might require the Service 
to take funds from other endangered species activities to designate 
critical habitat. If this were to happen, the imbalance that currently 
plagues the listing program would spread to the entire endangered 
species program.
    The President, therefore, is continuing efforts begun by the last 
Administration to break this gridlock and get back to the important 
business of protecting imperiled species. We are asking Congress to 
concur that funds be spent on listing actions that provide the greatest 
benefit for species at risk of extinction. This proposal would not 
change any of the underlying substantive requirements of the ESA, but 
would allow the FWS to use its resources to protect the species that 
are in greatest need of listing. The Service hopes to engage the public 
and interested groups in a dialogue on the development of a 
prioritization system, and then to put the resulting priority system 
out for public review and comment this summer.
    We recognize that this proposal has resulted in considerable 
controversy. While the problem is real and needs to be addressed, we 
would welcome the opportunity to work with this Committee and other 
interested Members/Senators to craft a solution that meets with wide 
approval.

                            GOOD GOVERNMENT

    The 2002 budget begins to shape the Department in a manner that 
supports the President's vision for a government that is active but 
limited, citizen-centered and not bureaucracy-heavy, results-oriented 
and not process driven, and market-based in order to promote innovation 
and competition. The budget proposal slows the growth in staffing, 
reflecting a reduction of more than 1,700 FTE below levels originally 
planned for 2001. The budget identifies streamlining savings that total 
$57.3 million that will be achieved through reductions in 
organizational layers, contracting efficiencies, lowered grade levels, 
management downsizing, and elimination of extraneous positions.

                               CONCLUSION

    In conclusion, the 2002 budget provides strong support for 
Interior's programs and for the men and women who carry out our 
mission. Further, it provides expanded opportunities to work with our 
constituencies involving them to a greater degree with expanded 
consultation, communication, and collaboration. As we expand their 
involvement, we can increasingly benefit from their creativity and 
capacity to innovate and thereby increase our effectiveness.
    I was reminded very recently that we can accomplish more by working 
together and building partnerships across ideological and political 
boundaries. Three weeks ago, I helped to release five endangered 
California condors back into the wild, achieving something that was 
once thought to be impossible. The captive breeding effort and 
subsequent reintroduction of the condors into the wild was made 
possible by collaboration with State, local, and private organizations.
    This concludes my overview of the 2002 budget proposal for the 
Department of the Interior and my written statement. I will be happy to 
answer any questions that you may have.

    The Chairman. Thank you very much, Madam Secretary. As you 
pointed out in your comments on the Land and Water conservation 
State grant program, the previous administrations had not 
funded that, and I think it was created back in 1965. You have 
indicated that in your budget you promise a full-funded 
Federal-State partnership at $450 million. Can you explain the 
formulas relative to the impacted areas vis-a-vis the non-
impacted areas relative to the reality that if you have a State 
like Louisiana or Alaska or Mississippi or Texas, some of the 
States where there is activity off-shore, whether those States 
in fact, in your formula, would get a higher percentage of the 
State funding vis-a-vis those States that are not impacted and 
do not have to put up with the cost associated with services, 
sewer, water, whatever?
    Secretary Norton. The funding in the Land and Water 
Conservation Fund State-side is not directly related to coastal 
impact, and so it continues the tradition of the Land and Water 
Conservation Fund allocations in the past. We do propose 
somewhat of a change in the formula, and that would, I believe, 
be 70 percent on the basis of population and 30 percent on the 
land area for allocation among the States.
    The Chairman. Well, as you know, Senator Landrieu, Senator 
Bingaman, several of us worked on this, and there was concern 
over private property rights and owners, and the fear that the 
Federal Government and the States would use these funds to 
acquire private property, and others were of the concern that 
clearly these impacted areas were not receiving a fair formula 
equivalent, and that there should be some consideration.
    As a matter of fact, the legislation initially was set up 
to provide an entitlement, so there would be an assurance of 
funding without getting into the issue of the private property, 
which I know many people feel very strongly about.
    It still seems that what we have done is pretty much turn 
this over to the appropriations process relative to what is 
funded and what is not funded, and as far as the impact, while 
we made a break-through in theory by saying, all right, there 
is authorization for OCS revenue-sharing to the impacted areas, 
we still do not seem to have an equity relative to the impact 
associated with these areas that provide the service, and I do 
not know to what extent you have addressed that in your formula 
basis, but it still seems to me that we have an inequity here, 
and I am sure there are others that are going to express their 
opinions on this as well. Maybe you would want to enlighten us 
a little further by written communication, but it is your call.
    Secretary Norton. I would be happy to provide some 
additional information to you about that, but I think you are 
talking about the real impact of assistance for the areas that 
are directly affected by off-shore production. I am certainly 
sympathetic to the impacts that do occur from production. Our 
budget at this point, though, are based upon the Land and Water 
Conservation Fund going to the States in very much the same way 
that it has in the past, and is designed essentially with the 
goal of conservation purposes in mind.
    What we tried to do is really expand the types of 
conservation purposes for which States can use money that is 
made available. For most States, this is a three to fivefold 
increase in the amount of money that they will be receiving, 
and we want to provide the States flexibility to respond to 
various types of environmental concerns that they might have.
    The Chairman. Well, let me ask you about the Federal 
funding share. Specifically, what are the limitations on that, 
and what can and cannot the Federal Government do with that for 
50?
    Secretary Norton. On the Federal side, we would be 
including money for land acquisition. It is very much the 
traditional purposes for which that has been used in the past.
    The Chairman. Well, really we have not had much of a 
program in the past. We had an authorization, but not much of a 
funding.
    Secretary Norton. For the Federal land acquisition?
    The Chairman. Well, we funded it directly through 
appropriations pretty much. I mean, this program has been 
there. It has never really been funded.
    We tried to put it together in a little different manner 
last year. We were partially successful, but I am curious to 
know, relative to land acquisitions of using the Federal funds, 
are the people in the region going to have something to say 
about what is purchased out of their regions with Federal 
funds, because this gets into the private property issue, and 
the fear of some that there is going to be a wholesale 
methodology for the acquisition of private property by the 
Federal Government in areas where maybe the people who live 
there find that is not in their best interest. What kind of a 
safeguard do they have?
    Secretary Norton. The entire direction in which we are 
trying to move is toward being more cooperative with States, 
with local communities, and with private landowners. In trying 
to move in that direction we have, first of all, created the 
landowner incentive program that I have described, which both 
works through the States and then has a direct component to it 
that would encourage people to make voluntary changes on their 
own property to improve habitat, so that essentially they would 
get technical assistance and so forth.
    What we saw from the Texas experience is that many people 
carry through with this by providing their own labor, their own 
initiative in trying to protect threatened species or rare 
species that are on their property. That is one thing that is 
very much moving in the cooperative direction toward habitat 
enhancement instead of the punitive type of approach that we 
have totally relied on in the past.
    Secondly, in terms of land acquisition, while we do not 
have any changes that would be reflected in statute, we do have 
changes that we are very much pursuing in our administrative 
course of the way in which we deal with things.
    The Chairman. My last question will be relative to 
something you touched on, and it is the responsibility that you 
have indirectly through the Bureau of Indian Affairs on 
managing and fulfilling the trust responsibilities to the 
American Indian tribal groups. Secretary Babbitt and I and 
others had a long discussion relative to how this was going to 
be cleared up, and I acknowledged that the Secretary, the 
previous Secretary inherited a mess, and you have inherited a 
mess, and it has not been cleaned up, and I do not think the 
BIA is capable.
    I do not think it has the technical ability to address and 
get a handle on this, and I would strongly encourage you to 
investigate those organizations that have had an extended 
experience and a reputation at providing trust services. My 
only fear is that they might be reluctant to accept taking on 
this kind of a responsibility, but clearly it is something that 
needs to be taken on by responsible people who can be held 
accountable for their actions and get a handle on this, because 
there is no excuse for it having gone on for as long as it has 
without adequate corrective action, and for the life of me I 
cannot understand why the previous Secretary felt that it had 
to be done within the BIA, and clearly that effort failed in 
spite of his effort, so I think it is time to shop around for 
new expertise.
    Senator Bingaman.
    Senator Bingaman. Thank you very much. Let me ask about my 
understanding of your Land and Water Conservation Fund proposal 
and see if I am right that the $450 million, which is on the 
Federal side, you are proposing that all of it not be available 
for land acquisition, that some of it be set aside for these 
other two programs that you mentioned, am I right about that?
    Secretary Norton. That is correct. Some of it would go into 
the other specific programs.
    Senator Bingaman. So there would be less than the $450 
million available for land acquisition on the Federal side?
    Secretary Norton. We believe this will allow protection of 
many more acres of habitat by encouraging people to protect 
habitat as opposed to buying the habitat.
    Senator Bingaman. So it would not be acquisition, it would 
be other ways to protect habitat, as you see it?
    Secretary Norton. That is correct.
    Senator Bingaman. On the State side, my impression there--
and I indicated in my opening statement--is that there are 
several programs that are currently pursued by States, wildlife 
conservation, endangered species programs, wetland restoration, 
migratory bird habitat.
    You are proposing cuts in Federal funding for each of 
those, but defining the State side of the Land and Water 
Conservation Fund as including those, so the States can use the 
money that they receive from the State Land and Water 
Conservation Fund to make up for the cuts that are otherwise 
going to take place in those programs. Is that an accurate 
description?
    Secretary Norton. Yes. We want to provide the flexibility 
to the States to allocate the money as they see it would be 
most valuable. We are trying to provide them a broad range of 
activities and allow them to use that money more flexibly so 
that it goes beyond just the traditional recreation approach 
that we have had in the past of providing money for swimming 
pools and things like that, and really moves it into things 
that are really more environmentally responsible.
    Senator Bingaman. Do you not think it is appropriate that 
if that was to be done, that is a change in the use of the 
funds in the Land and Water Conservation Fund? Would it be 
appropriate that that be done through authorizing legislation, 
rather than just as a budgetary provision, or appropriations 
language somewhere?
    Secretary Norton. We are very excited about this approach, 
and the way in which we are broadening out to the ways in which 
the States can use the money. We are happy to work with 
everybody about the details in the way that takes place, but it 
certainly is arguable that that is within the overall scope of 
the Land and Water Conservation Fund purposes, as it has been 
carried out in the past.
    Senator Bingaman. Let me ask about the PILT payments, the 
payment in lieu of taxes. The current authorization for PILT is 
about $325 million. Several of us here on the committee have 
been working hard to try to get that fully funded, and we have 
never succeeded. This current year we are at $200 million, and 
your proposal is to cut that by a fourth. Why is that a 
proposal of the administration? I would have thought the 
administration would have supported higher levels of funding 
for PILT.
    Secretary Norton. Well, as a westerner, I understand that 
those are important payments to local communities. We have 
returned this to the 2000 funding level, so it is at historic 
levels. This is also something that we are trying to move 
toward more State funding. We have not been perfect in the way 
we have moved everything toward that State funding, but we are 
certainly trying to move in that direction. The overall thrust 
of this budget has been to return more money directly to the 
States and under more State control.
    Senator Bingaman. So this is an exception to the overall 
thrust?
    Secretary Norton. This is one of those things that again we 
allow the States flexibility in the ways in which they are 
using that money to the extent that they think the rural 
regions would benefit from the types of funding available to 
them under the Land and Water Conservation Fund. They can use 
the resources in those areas.
    Senator Bingaman. Let me ask, on the Geological Survey 
funding, the budget you have given us proposes a cut of $69.4 
million for the USGS. In addition, I understand you have 
instructed the agency to make program cuts of $23.6 million to 
absorb uncontrollable costs, so we add those two together, you 
get $93 million in cuts at the Geological Survey. As I 
understand it, this would eliminate much of USGS's water 
quality programs, most of their climate change research, all of 
their fire science work, most of their biological research and 
information dissemination, and a good deal of their geological 
mapping research.
    I guess maybe the best way to pose the question is sort of 
philosophical. I have always seen the Geological Survey as a 
resource to the entire country and to local government and to 
State government, and it is sort of the flagship premier 
research organization to inform a lot of public policy 
decisions. It seems like these types of cuts that you have 
proposed, its ability to function in that way would be 
seriously impaired. Do you see it differently, or what is your 
response?
    Secretary Norton. If I can make a few points, first of all 
I do not think it is accurate to say that we are cutting in 
order to deal with the uncontrollable costs. We are leaving the 
same amount of money in that budget. It is just the fact that 
their costs are going up. It is reflected in the budget 
documents that they will be absorbing uncontrollable costs, but 
that is not really a cut.
    We are looking at trying to focus the Geological Survey on 
better serving the needs of the Department's land managers. It 
has gotten into a lot of other areas that are fairly far afield 
from providing insight for those who are managing their 
resources, and we want to focus the survey back on that.
    A second activity of USGS, which we do support and 
continue, has been its cooperative working relationships with 
other agencies, and in some situations we are trying to move 
toward outside funding sources. The budget reflects efforts 
that we will be trying over the coming months to find partners 
who will assist us in paying for the benefits that they have 
been receiving in the past, so that USGS will be recovering 
funding from those agencies and private sector that have in the 
past not contributed to the costs of services the USGS has 
provided.
    Senator Bingaman. Mr. Chairman, my time is up. Could I just 
put the appropriate pages from the President's budget request 
which show this $90-million program decrease for USGS in the 
record?
    The Chairman. Without objection.
    Senator Kyl.

      STATEMENT OF HON. JON KYL, U.S. SENATOR FROM ARIZONA

    Senator Kyl. Thank you, Mr. Chairman. First of all, Madam 
Secretary, let me compliment you for the job you have done 
without a lot of staff in your first 100 days or so. My office 
has already had substantial contact on some emergency problems 
that relate to the energy crisis as well as ongoing Indian 
water negotiations and some other issues, and Chris Kearney and 
Chad Calvert have been particularly helpful, but everybody we 
have talked to has bent over backward to try to help us work 
through these problems, and I compliment you and your staff for 
that.
    Secondly, let me just reiterate something I have talked to 
you personally about, and that is the forest health, the need 
not only to deal with the potential catastrophic fire problem 
dealing with our forest health issues but also the fact that 
the forests need to be restored to the status, really, that 
many of them were 100 years or so ago, when nature did take 
care of the eradication of the excess fuel, and in so doing 
kept the forests healthy.
    We have got disease, we have got crowding, and because of 
the diminution of logging, we have not gone in to thin out a 
lot of the growth that is choking the big healthier trees, and 
as a result, according to the GAO, we have got a huge problem, 
probably need to, over the course of the next 20 years, treat 
maybe 30 million acres or so. Part of that is agricultural 
forestland, part of it is Interior jurisdiction land, and I 
would be curious as to any thoughts that you have with respect 
to that.
    On the matter of the Land and Water Conservation Fund, the 
chairman noted something that I want to reiterate. That is the 
fact that in States like Arizona, where we have such a small 
percentage of private land, I hear we have a very rapidly 
growing State, something like 12 or 14 percent of the land is 
privately owned, and decreasing dramatically every year by the 
purchase of private land by Indian tribes and the Land and 
Water Conservation Fund acquisitions that have supported--
because there are some really unique properties that we have 
wanted to acquire, but the net result of that has been a net 
decrease in the amount of private land available.
    Some of us are getting to the point where we want to have 
some kind of no net loss policy with respect to private land, 
and therefore to develop some kind of policy that would permit 
exchanges rather than outright purchases of private land, and 
in that regard I do applaud you for the effort to try and 
provide some assistance to private landowners so that we do not 
have to acquire that land by the Federal Government, and they 
can do the job themselves.
    As you know, we have some national monument issues. The 
Secretary who preceded you moved very quickly, in some cases 
without proper local consultation, resulting in leaving you 
with a passel of problems. I know you are aware of that. We 
will have to work those through, but these are some of the 
things that are of concern to me.
    The primary budget issue is the forest health issue, and I 
just wonder if you could speak to that a little bit about your 
plans with respect to helping to treat these lands so that we 
both eradicate the fire danger and also restore them to a 
healthy condition.
    Secretary Norton. Thank you, Senator. Yes, we are moving 
towards more of a focus on fuels reduction and forest health. I 
agree with you that our forests have become much, much more 
dense than they were a century ago, and that poses tremendous 
problems for both fire and for disease, and just for having 
truly healthy forests.
    We are working to try to change our approach to manage the 
forests in a more active way, and we are moving forward with 
fuels treatment. That program has continued at last year's 
level, so that will be $187 million, and that compares with 
only $49 million last year, and so that is a significant 
increase and a significant focus for us.
    We are not progressing as quickly as I wish we were. We are 
trying to make some fundamental changes. In the long run, I 
would like to see us move towards some things like a program 
that we are exploring in Idaho that would use some thinning of 
small trees in the forest for biomass, so that we have a 
productive use for that forest product.
    Senator Kyl. We have made a budget request for a similar 
program out of Northern Arizona University in Flagstaff to do 
the same thing.
    Mr. Chairman, in view of the vote situation, and the fact 
that others may wish to question the Secretary before they go 
vote, why don't I terminate this question, but again compliment 
the Secretary for the great cooperation we have had.
    By the way, one last thing we are doing in the Indian water 
settlements now that are going to cost a lot of money in the 
West, and we are trying to find some innovative ways to pay for 
those without having to go through the appropriations process, 
and we hope to bring those to your attention soon, if I can get 
my colleagues' cooperation on this, because it would be a way 
to solve these issues and provide actual wet water to our 
Indian neighbors without having to come back every year and 
fight for appropriation dollars, and I will share more of that 
with you in the future.
    Secretary Norton. Thank you.
    The Chairman. Senator Craig.

        STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR 
                           FROM IDAHO

    Senator Craig. Mr. Chairman, thank you. Secretary Norton, 
welcome. We are pleased to have you back before the committee, 
and pleased again to see more clearly the vision that you wish 
to imprint upon the Department and the direction you wish to 
take it.
    You will not find in this committee total opposition to 
your concept in Land and Water conservation. There is a 
respectable split here between I and my chairman and Senator 
Landrieu and others. There is no question that if we could give 
all of the money to States that are, if you will, coastal 
States, to off-shore activity, it would encourage more off-
shore exploration around our country. I would be for doing it.
    I am very disappointed in the rather selfish attitude of 
States who put their off-shores off-limits where there are 
substantial reserves and then want to share in the bounty of 
those that, like Alaska and Louisiana, who recognize the 
importance of that to our country.
    But be that as it may, the one thing that worked 
aggressively against the CARA legislation, and my colleague 
from Arizona and others have expressed, is this private 
property acquisition problem in public land States in the West. 
Somehow we suffer the illusion that if the Federal Government 
owns it, it is environmentally safe and sound. I think the 
Federal Government's reputation of protecting the environment 
ought to be reexamined.
    Clearly, the private sector can play a very vital role, and 
that land can stay on the tax rolls and can be a contributor to 
local and State governments, and as a result of that I have 
been opposed to the ability of the Federal Government to 
acquire, and/or State governments or State Fish and Game 
Departments. It is much better to allow the private citizen to 
work with and share in that experience of developing habitat 
and conservation programs, in my opinion, and I think it 
broadens the overall understanding of wise land use.
    Having said that, you will find a supporter here in much of 
what you are talking about. I do have problems in Idaho. I have 
one of your agencies wanting to put grizzlies in the heart of 
my State. My Governor and I do not like that idea, and we are 
going to work with you to disallow that happening.
    In the past administration they did put wolves in Idaho. We 
think it is time to examine them very thoroughly to determine 
whether they have arrived at a population base for delisting 
and management. They are decimating the wildlife herds of our 
State. We have elk herds with no calves left in them, deer 
herds with no fawns, domestic livestock are suffering because 
the wolf is doing what the wolf does well. When there is no 
predator in competition, it kills at will, and it is killing at 
will, and multiplying at an unprecedented rate, so that is a 
problem for Idaho, but it is a problem for the Department of 
the Interior to work with us in responding to that.
    I agree with my colleague from New Mexico, while the PILT 
payment last year may have been an unprecedented high, in my 
opinion it is a recognized catch-up from times and year after 
year when it was not funded and it did not keep up with 
inflation.
    Local units of government really do have a problem when it 
comes to providing services to activities on Federal lands that 
they are not paid for, emergency rescue, police, fire, 
oftentimes some road maintenance, that the Federal Government 
shares the bounty of, or those who trek on Federal lands have 
the security from, but nobody pays for it except the local 
taxpayer, and that is where PILT does serve a very valuable 
purpose and I am a bit frustrated by that cut. We will work 
with you to see if we cannot restore some of that and keep it 
relative to the initial concept of the payment in lieu of tax 
as we work on those kinds of issues.
    So you are right about fire. Last year was the worst fire 
season in our country's history. A lot of BLM land burned, and 
my guess is it will burn again this year. It may be record 
rates. I hope not, but certainly what you are talking about as 
it relates to assistance to local communities, one of the 
things we have lost in the rural West, especially the BLM West, 
is the right of those who live there to participate at the time 
of an initial fire action.
    I will not forget the time when the BLM truck rolled into 
our ranch, deposited the cache of equipment, and gave us a few 
good, encouraging words, and the fire season was on, and 
oftentimes the local ranchers had the fire out long before the 
BLM and the fire crews arrived. It was the local initial 
engagement. We have lost that concept. We have lost it for 
concern of liability, for the idea that only an expert fire 
crew can fight on public lands, and as a result, my guess is, 
initial assaults oftentimes are delayed, and thousands of acres 
burned when they could otherwise be brought under control.
    I am not sure that we can restore that, but I am working 
with the Forest Service to train and therefore card local 
civilian populations and local fire districts to have more 
ability to do that, and that is something that we might look 
collectively at.
    As you know, you play a major role. You were out in Boise 
at the National Fire Center. What we do there cooperatively 
amongst all of the agencies is extremely important.
    The Chairman. Senator, I am going to allow you to finish, 
but we are going to recess. We are just going to have to. We 
have three votes, and I would invite the Secretary to reside in 
the back. We have got some pretty pictures of former chairmen 
back there to look at.
    Senator Craig. Thank you, Mr. Chairman. I will conclude 
this, because I have got to catch that vote also, but there are 
a great many things we have got to work on. I am pleased to see 
you emphasizing infrastructure with the Park Service. 
Obviously, the Indian trust issue is a very large issue for us. 
Let me stop and ask you to respond to any of those comments 
that I have made.
    Secretary Norton. I look forward to working with you on 
those things. Interaction with local people on fire fighting is 
something that I am very concerned about. I certainly want to 
support very good cooperation. I look forward to working with 
you on perhaps some training proposals. It is very important to 
us that we continue to work with local fire agencies, and so we 
are doing that as part of our ongoing process.
    Senator Craig. Well, thank you very much. The committee 
will stand in recess until the chairman returns.
    [Recess.]
    Senator Thomas. I think we will go ahead and begin. I am 
sorry, Madam Secretary, this voting takes a little longer than 
sometimes we think. Again, thank you so much for being here. I 
will go ahead and start with some questions until someone else 
comes.
    Budgets are very important, but I just want to say, and I 
know you have been doing this, I think the policies and the 
management of the Departments has a great deal to do with it as 
well, and so the budget needs to be done, it needs to be done 
properly, but if we want to do some things to make some 
changes, much of that can be done irrespective of the budget, 
and I just wanted to make that point.
    Let me go to the park budget for just a moment. Each of the 
budgets we hear and see--for instance here it talks about the 
National Park Service having $2 million 400-some-thousand 
increase, or whatever it is, $200 million, I guess. Actually, 
when you look at it, if you took out the State-side money which 
the park manages, the park would actually have less 
appropriation than they did last year. What do you think of 
that?
    Secretary Norton. Let me let our budget expert answer that 
part of it.
    Mr. Trezise. Thank you, Secretary Norton.
    Senator Thomas, there is an increase in the basic operating 
account for the national----
    Senator Thomas. I am talking about the total budget, and 
you put it out there the total budget is increased, and I am 
telling you, if you take out the State-side, which they are not 
able to spend, all they do is manage, then the total budget is 
less, is that not correct?
    Mr. Trezise. For the total budget, yes, sir, that is true.
    Senator Thomas. So there is no more money to do things with 
in terms of taking care of the backlog. You simply have changed 
some of the spending directions to aim it towards backlog.
    Mr. Trezise. I do not think that is a correct 
characterization. There is an increase within the operating 
account for the Park Service of $60 million in new funds from 
the Treasury for reduction of the backlog. The reductions in 
the Park Service that account for your point that the overall 
funding is not increased are in areas such as grant programs 
and direct Federal land acquisition.
    Senator Thomas. I understand. My point is, it is not an 
increase in the park budget.
    Mr. Trezise. The overall budget?
    Senator Thomas. A simple yes or no will do.
    Mr. Trezise. Yes.
    Senator Thomas. I am not critical of that particularly, but 
I just think it is not quite accurate to tell people that, boy, 
we are working on parks, and it is the only Department that is 
increased, when in fact it is not.
    Now, wildfire management, I think we have already spoken 
about that, having done that a time or two. It seems like there 
is an awful lot of money going to people, when in fact if we 
can do something more for prevention and do something more with 
equipment and so on, you know, people are relatively helpless 
to a mountain fire. I have been there, and it is tough, so how 
do you feel about the allocation of the money for the wildfire 
management?
    Secretary Norton. Senator, this is based on a national fire 
plan, and our implementation of that plan, and so to a large 
extent we are relying upon that process, which involved the 
States as well. In our planning process we are certainly 
learning as we go along here, and would be happy to look at the 
allocation of funds as we learn about it, but at this point we 
are really trying to focus on hiring and training fire 
fighters, both permanent and temporary employees, so that we 
are ready to deal with that.
    Senator Thomas. I understand, and I just think it is 
something that maybe we ought to look at.
    Abandoned mine reclamation fund is paid in by the States, 
as you know, and some is supposed to be returned, actually. 
Apparently, according to this there will be a fairly 
substantial reduction, like 26 percent for Wyoming. We have 
been trying to get some of the money back that actually is 
Wyoming's money, and we have not been successful, and now it 
appears we will have less than we did before.
    Secretary Norton. We would be happy to look at the Wyoming 
figures for you. I do not know those, but overall a large part 
of what appears as a cut in that program is money that last 
year went to a mineworker's health benefit program. $97 million 
of the difference in funding was because of funding last year 
going into that, and so all of the money this year is really 
focused towards actual abandoned mine land programs, but there 
is a cut in that of approximately $30 million.
    We are still attempting to ensure that those things are 
done in the most cost-effective way possible, and in terms of 
number of acres treated, I am sorry, it is a $35-million 
reduction, it will result in cleaning up 6,000 to 7,000 acres 
in comparison to the 2001 estimate of 7,200 to 8,400 acres.
    Senator Thomas. Well, I think there is a fairness issue 
involved, and I realize that the health fund was something 
separate. It was supposed to be broken down. A payment of 35 
cents a ton is still there. It was supposed to be broken down 
for the return part of it to the State it came from, and we 
have never received the amount that we are entitled to, and it 
is a trust fund there, a pretty large one, as I understand it, 
so I would appreciate it if you could take a look at that. I 
think that is an important one.
    Just another area that might be useful, I just came from 
the methane coal area, and I realize it is difficult to fund, 
and they always say, well, we do not have enough people in the 
Bureau of Land Management, but where the surface is owned, and 
the Feds own the minerals, the BLM is out there dealing with 
the privately owned surface, and a lot of folks do not think 
that that is something they need to do. I think it would be 
well to take a little look at the management aspect of the 
activities in terms of methane gas costs, and the amount of 
people necessary to do that.
    Secretary Norton. I will be happy to take a look at that. 
That is the first I have heard about the surface management 
issue. I know we have dealt with trying to find some rational 
ways of not wasting either the methane resource or the coal 
resource as we go forward with that.
    Senator Thomas. I understand. I just think that there has 
to always be a relationship between expenditures and management 
and efficiency and taking a look at the management aspect of 
it. The Government is not necessarily famous for being terribly 
efficient on some of those things, and we might take a look.
    Just one more point. I would hope that the Fish and 
Wildlife Service would take a little longer look at doing, 
completing and delisting--you know, there is great emphasis on 
listing, but there does not seem to be as much emphasis on 
completing that and getting the recovery. Grizzly bears is a 
good example. We passed the numbers that were in the listing 
for a number of years. It is still there. It is still listed.
    The State is still having to pay the price to manage those 
things, and I have had a bill, or an idea that I think works, 
and in the bill form, that when there is a listing there ought 
also to be a recovery plan along with it. If that is not the 
case, then the recovery is seldom done.
    So anyway, a few ideas that I appreciate the opportunity to 
work with you.
    Secretary Norton. We welcome your suggestions and look 
forward to working with you.
    Senator Thomas. Thank you. Senator Bingaman.
    Senator Bingaman. Thank you very much. On this issue of 
national park maintenance that Senator Thomas was asking about, 
as I understand the proposed budget, there is a request for a 
7-percent increase in construction funding at the national 
parks, but most of that increase, or proposed increase, results 
from redirecting park entrance and concession fee revenues, and 
those are revenues which have been used in the past few years 
to address critical park visitor and resource funding needs.
    I guess my concern is that what we are doing essentially is 
taking funds out of one area, redirecting them into another 
area, these entrance and concession fee revenues, and not 
providing any way to make up the funds that have been taken 
out, so we are sort of robbing Peter to pay Paul in a way that 
does not really get anything very constructive accomplished. Is 
that an accurate description of what is happening or not?
    Secretary Norton. Senator, if I can set out what I think 
our numbers are a little more accurately, we have a $100-
million increase in the amount that goes for the maintenance 
backlog. Of that, about $40 million comes from either 
concessions fees or from visitor fees, but an additional $60 
million of that is new money, and that is money that is not 
coming from that fee program, and so we do have that.
    In addition to that, we have a $20-million increase in the 
natural resource challenge funding for the National Park 
Service, and that is the use of biologists to better understand 
the ecology of the parks, it's education efforts within our 
parks that are scientifically oriented.
    Senator Bingaman. And so you are suggesting that some of 
that $20 million does offset the cuts that are otherwise being 
made in the park visitor and resource funding areas in order to 
redirect this $40 million into this, is that right?
    Secretary Norton. I would be happy to provide you some 
additional details, but basically we are making some 
reallocation, because we felt that it was important to deal 
with the maintenance backlog.
    Senator Bingaman. Well, I agree it is important, but I 
think if we create another problem by redirecting funds out of 
another critical area, that obviously is a little shortsighted.
    On the national monuments, you may have been asked about 
this while I was out for the votes, but I guess I would be 
interested in knowing what the status is of your review of the 
national monuments and conservation area designations that were 
made at the end of the last administration. I had assumed 
that--assuming those are going to remain as national monuments 
or conservation areas, there would have to be increased funding 
in order to properly manage those in their new designation, and 
I did not see anything in the budget to reflect that.
    Secretary Norton. We sent a letter out about a little over 
a month ago to Governors, local officials, State legislators, 
as well as members of Congress in the affected areas asking for 
their input. We are still receiving information back from them 
about the local reaction to the monuments, and will look at 
that and then work with Congress on some types of changes, 
boundary changes and things like that, that might be 
appropriate, as well as look at the planning process.
    We have money within the BLM budget for planning at those 
monuments. $3.4 million is included for the planning process, 
and obviously you have to do the planning before you can 
actually spend the money on the ground for visitors' centers 
and----
    Senator Bingaman. It is your thought that $3.4 million 
would be adequate for all of the work involved for quite a few 
monuments, as I recall it.
    Secretary Norton. That is over and above any base-level 
funding that might exist for those areas already. Obviously, if 
you are talking about a BLM area, then there is existing 
funding there for management of that area, and so that funding 
continues as well.
    Senator Bingaman. One other proposal in the budget is to 
transfer the $2.8 million from the Geological Survey's fire 
science program, transfer that money over to the Department's 
wildlife management account. I guess I have always been 
impressed that that was a useful program in the Geological 
Survey. What would you see that money being used for in this 
other area, and what would happen to that activity in the 
Geological Survey? I am sorry, that is wildfire. I said the 
Department's wildlife management. I meant wildfire management 
account.
    Mr. Trezise. Senator Bingaman, within the wildland fire 
program there is an existing fire science program that has been 
funded for a number of years. Our proposal this year is to 
consolidate the GS wildland fire science work, which has been 
conducted essentially on a separate track, into a consolidated 
program.
    We would anticipate that the same scientists in the GS who 
are doing fire science work will remain at the same locations 
doing fire science, including continuing many of the same 
projects, but it will be done in better coordination with the 
larger, broader fire science program being conducted through 
the fire program.
    Senator Bingaman. So you do not see a diminution in the 
effort, level of effort or the number of people working on it?
    Mr. Trezise. No. The USGS people will remain in place, and 
remain doing fire science.
    Senator Bingaman. Okay. In some of these other GS areas I 
assume that is not the case. For example, there is a $10-
million cut in the toxic substances hydrology research program 
at the Geological Survey that has just got to be a reduction in 
the number of people working in that area of activity. Am I 
right?
    Secretary Norton. That is an area where we are trying to 
find outside partnerships and consult with people about, 
perhaps, other ways to continue that program. That is one 
approach that USGS has done in the past. It may duplicate the 
efforts that are currently being done through States and 
through the Environmental Protection Agency.
    We are also looking at the need for that program as 
something independent from the other very similar programs that 
are being done by other agencies, and so it may result in 
something that is a cost-sharing kind of proposal for that, or 
in discontinuing it.
    Senator Bingaman. My time is up, Mr. Chairman. Thank you.
    Senator Thomas. Just a couple more comments. You have 
probably had about enough fun this morning. To come back to the 
park thing and the reallocation of funding, and I understand 
that one of the things we talked about in our parks bill a 
couple of years ago was the idea of strengthening the 
opportunity to write out contracts for large concessionaires.
    To the best of my knowledge, that has not been done, and if 
you take away money, as you say you have for other purposes 
from the concession funds, they are not going to be able to 
have the kind of expertise that is necessary to renew AMFAC, 
for example, in Yellowstone Park, or many of the others, so I 
guess I would like to urge you to give some thought to how we 
provide for the Park Service the kind of expertise to deal with 
these large concessions, and they are quite important. Many of 
them have not been renewed. They are on a yearly basis, and 
that is not what the law asked for, nor is the best efficiency 
in terms of money.
    Secretary Norton. I know that Pricewaterhouse did a study 
for the National Park Service about their capabilities, and it 
found, as you suggested, they did not have the capabilities for 
those major concessioners, and that that should be contracted 
out. That is something that seems appealing to me that we 
should do, and we are working with the Park Service to 
implement that.
    Senator Thomas. And that does have something to do with the 
shifting of concession fees, so I do want to say how much I 
appreciate and support your idea of moving some of these land 
use decisions back closer to the people that are there.
    I think that is a great idea, and so I think some of the 
changes you talked about this morning in the Land and Water 
Conservation Fund are good changes that allow there to be some 
flexibility there, so I happen to have a bill on no net gain in 
Federal ownership in States that have over 25-percent Federal 
ownership, and I am very happy to see--last year, despite the 
backlog in parks, there was more money in for acquisition than 
there was for maintenance, and I do not think that makes sense.
    Just one final comment on the PILT payments. I do think 
that if you want to put decisions back where they belong, PILT 
actually is supposed to be a substitute for the taxes that 
these counties would be getting if those lands were in private 
ownership, and these counties have to provide health care, they 
have to provide emergencies, they do all of those services, and 
it seems to me in terms of flexibility that is one of the best 
things we can do to move towards that authorization level, 
which is over $300 million, and I hope we can move that.
    So thank you so much for being here, and thank you for 
working with us here, and we look forward to working with you.
    Mr. Chairman, thank you.
    The Chairman. I think we have kept the Secretary long 
enough, and I want to apologize for the hour and 10 minutes 
that it took us to go through three votes, and I expressed my 
outrage on the floor, and it was backed up by Senator Byrd, who 
expressed his outrage at greater length than I did, so that 
took some time, but nevertheless, it is almost lunchtime, and 
hopefully the Secretary has worked up an appetite.
    A couple of things that are unique, I think, to the various 
States that have come out of the discussion, and one of them is 
the PILT, the payment in lieu of taxes, the concern that we 
have all expressed relative to a reduction in that, and we 
would like you to reconsider that.
    The other thing, depending on the various States, but 
certainly appropriate in our State as we look at the Land and 
Water Conservation Fund and the formula for Federal land 
acquisitions, and I have looked at the budget, and there are 
three or four land acquisitions in my State, and my immediate 
reaction to those is, well, here we go again.
    We have got a State that is 80 to 90 percent owned by the 
Federal Government, depending upon whether you classify State 
government or private Native land in that ownership. We have 
very little private land. It is less than 1 percent, and when 
these inholdings are proposed in your budget using, I assume, 
through the appropriations process, the portion of the Federal 
land acquisition, that means that we have that much less 
private property in the State, and it is kind of a two-edged 
sword from the standpoint of those owners of the inholdings. 
Some of them are so frustrated at their inability to have 
access and develop their inholding that they finally succumb to 
the pressure of Big Brother and are ready to sell.
    The irony and, of course, the inconsistency is, well, there 
goes some of the private land that we used to have that could 
be used for any number of purposes that could benefit the 
public, whether it be recreation or tourism or whatever.
    In any event, that is a dilemma we face, so I am going to 
look long and hard at your proposed funding for inholdings in 
our State relative to, is it the reason that the individuals 
are putting them up for sale, because they are so frustrated 
with the Federal agencies because of the lack of access, and 
they would like to develop them if they had access.
    Of course, the access is guaranteed, in theory, under 
ANILCA, but in practicality it is like we get into mining 
issues in Denali, which is not in the Wilderness. It is in the 
new park. It was assured under ANILCA, but the Park Service has 
never issued a mining permit, so these poor people are running 
down rabbit trails, frustrated, getting older, and finally they 
reach the point where they are ready to concede, and that is 
the expression we have had for a long time.
    So maybe we can work together to try and resolve this, 
because these people are not going to live forever, and of 
course that includes you and I, so with that profound 
observation, do you have anything to comment on?
    Secretary Norton. We will work with you on the land 
acquisition issues and other things.
    The Chairman. With that, we will say we are adjourned. 
Thank you very much. We appreciate your being with us.
    [Whereupon, at 11:55 a.m., the hearing was recessed, to be 
reconvened on May 10, 2001.]


 PROPOSED FISCAL YEAR 2002 BUDGETS FOR THE DEPARTMENT OF THE INTERIOR 
                     AND THE NATIONAL PARK SERVICE

                              ----------                              


                         THURSDAY, MAY 10, 2001

                           U.S. Senate,    
            Subcommittee on National Parks,
             Historic Preservation, and Recreation,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:45 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Craig Thomas 
presiding.

            OPENING STATEMENT OF HON. CRAIG THOMAS, 
                   U.S. SENATOR FROM WYOMING

    Senator Thomas. I apologize for being a little late. We had 
a couple of votes. Voting just keeps interrupting our work 
around here. In any event, welcome.
    This is an oversight hearing for the Subcommittee on 
National Parks, Historic Preservation and Recreation. Today our 
intention is to review the President's proposed fiscal year 
2002 budget for the operation of the Park Service and to 
discuss how it's going to fit into the plans we've made and 
plans that you've made and where we're going to be. It is an 
ambitious budget proposal.
    I note the budget requests an overall increase of 
approximately $342 million. This is an increase of 
approximately $76 million for operation services, and an 
increase of $20 million for natural resource challenge to 
strengthen resource management throughout the park. That's 
good.
    In order to meet the administrative efforts to eliminate 
the Park Service maintenance backlog, there has been an 
increase of $24.5 million on the line-item construction, as 
well as an effort to direct some recreation and concession fees 
to fund the maintenance backlog initiative.
    Most significantly, this budget proposes full funding for 
the State-side Land and Water Conservation Fund, an increase of 
approximately $340 million.
    This is an ambitious budget, which includes some aggressive 
steps towards addressing long-standing issues of the Park 
Service. However, I have some concerns about it. In simple 
terms, once we take out the past three programs such as the 
State-side for Land and Water Conservation Fund, the budget has 
actually decreased from last year. The budget proposes to 
redirect recreation and concession fees to help finance the 
maintenance backlog.
    I'm concerned particularly about the backlog of concessions 
contracting. Frankly, I don't see how their concession firm can 
move forward if the funds are diverted elsewhere.
    The Recreation Fee Program is designed to enhance a variety 
of visitor services, not just to fund construction and 
maintenance needs. We've devised a system to identify and 
evaluate needs at the park level, along with the review 
process, to ensure the highest priority projects are addressed. 
I'm not sure how the redirecting of these funds will impact 
these priorities in our ability to provide services for 
visitors.
    The budget makes significant reductions in historic 
preservation funds and air and park recreation funds. While the 
budget proposes to broaden the types of programs that are 
available, under the Land and Water Conservation Fund, not all 
of the programs impacted will qualify for funding. There are 
other issues concerning the Land and Water Fund that we'll 
address this afternoon.
    So rather than a long statement, it's more important to 
hear from our witness, and there are a number of small 
housekeeping items that need to be addressed.
    The hearing record will remain open, however, for a period 
of 2 weeks for anyone wishing to make any comments.
    Senator from Hawaii, glad to have you, sir.

        STATEMENT BY HON. DANIEL K. AKAKA, U.S. SENATOR 
                          FROM HAWAII

    Senator Akaka. Thank you, thank you very much, Mr. 
Chairman, for requesting this hearing. I want you to know that 
I appreciate the hard work you have done on the Park Service 
issues. We have worked well together in the past on a number of 
important parks issues, and I look forward to our collaboration 
this year as we address the challenges and needs facing our 
national parks.
    I would like to extend my aloha to Mr. Denis Galvin, Acting 
Director of the National Parks Service, who has been a frequent 
witness in this hearing room. His service to parks and to our 
committee also is greatly appreciated.
    There are several things that please me about the fiscal 
year 2002 Park Service Budget Request from President Bush. The 
first is an increase of $246 million in the budget over fiscal 
year 2002 enacted for appropriations.
    Because of increasing visitorship, preservation, and 
management demands on national parks, the increase is a bright 
spot in the overall budget that many of us believe falls short 
in making the necessary investments in education, health care, 
and other critical national priorities that have bipartisan 
support.
    Additionally, I'm pleased to see the administration's 
priority for addressing the deferred maintenance backlog for 
repair and rehabilitation of park facilities. I agree that we 
must maintain roads, trails, and visitor centers and national 
parks. The parks are our national resource ambassadors for 
visitors from around the globe and to Americans alike.
    I am also pleased to see that the Department of the 
Interior proposes to continue an increase in the Natural 
Resources Challenge, an initiative that focuses on natural 
resource preservation in our parks. As you know, we are 
fighting an up-hill battle in Hawaii to maintain our native 
species, many of which are endangered by invasive plants and 
animals.
    Lastly, I'm particularly pleased that the National Park 
Service has recognized Hawaii's needs and provided some 
important increases for Hawaii's national parks.
    First, the NPS request for land acquisition for national 
parks makes 18,600 acres of prime native forests adjacent to 
Hawaii Volcanoes National Park its number one priority for 
acquisition.
    The Kahuku Ranch on the island of Hawaii encompasses 
spectacular and wide-ranging ecosystems. It spans 115,000 acres 
from 2,000 to 13,000 feet elevation, encompassing the entire 
range of native ecosystems on Mauna Loa. This property, if 
acquired, will link over 500,000 acres of land in cooperative 
Federal, State, and private conservation management from the 
windward and leeward coast to the summit of Mauna Loa.
    I appreciate the Park Service' vision and commitment to 
conservation in Hawaii and look forward to working with the 
service on the proposed purchases.
    Second, Hawaii receives an operational increase in the 
proposed budget for one of the most spectacular parks, 
Kalaupapa National Historic Park. The statue of Father Damien 
stands proudly in Hall of the Columns of the U.S. Capitol as a 
proud reminder of the stewardship and love for Kalaupapa. The 
increase will allow the park to undertake recovery plans that 
control alien species and restore native habitat.
    Mr. Chairman, I have questions that I would like to ask at 
the appropriate time and thank you for this opportunity.
    Senator Thomas. Thank you, Senator.
    Mr. Galvin, welcome the acting director again.
    Mr. Galvin. Thank you, Mr. Chairman. If it pleases the 
Chair, I would like to ask Bruce Sheaffer, our controller, to 
accompany me.
    Senator Thomas. Certainly.

 STATEMENT BY DENIS P. GALVIN, ACTING DIRECTOR, NATIONAL PARK 
              SERVICE, DEPARTMENT OF THE INTERIOR

    Mr. Galvin. I have a prepared statement I have prepared for 
the record. I'll simply summarize it.
    I thank you for the opportunity to appear before the 
subcommittee today. The fiscal year 2002 request of $2.5 
million in appropriated funds is, as you pointed out, a net 
increase of $346 million above fiscal year 2001.
    $1.5 billion would fund National Park Service operations, 
that includes a separate activity for the U.S. Park Police. The 
request is highlighted by three key initiatives: Full funding 
of the Land and Water Conservation Fund, continued support for 
the National Park Service Natural Resource Challenge, and 
additional funding for improving and rehabilitating park 
facility infrastructure.
    Fully funding the Land and Water Conservation Fund is at a 
level of $900 million, $450 million for State grants within the 
National Park Service budget, and an additional 450 million 
scattered across other of Federal land managing agencies.
    The State grant program principally has been used for 
public outdoor recreation. This year the administration is 
proposing to include projects which would conserve and restore 
threatened wildlife, wetlands, and habitats. It is estimated 
that approximately 5,700 new grants would be awarded to the 
States.
    Projects would range from acquisition of open space in 
natural areas, to the development of active-use facilities.
    In addition, in a new provision, $10 million would be set 
aside to be apportioned to federally recognized Indian tribes 
through a new competitive grant program.
    In addition, Mr. Chairman, you noted that $20 million has 
been funded for the third year of the 5-year Natural Resources 
Challenge. This program, which has been supported in its first 
2 years generously by this subcommittee and by the Congress, is 
critical to sound management and decision making for resources 
within the parks. It has strengthened our inventory and 
monitoring, it has allowed us to put exotic species teams in 
the field to eliminate invasive and exotic species.
    We have expanded our network of university partners and 
begun to staff a network of learning centers to support 
research.
    The third initiative is increased funding and support of 
the President's commitment to address facility infrastructure 
needs in units of the National Park System. This is spread 
across a number of activities in the budget, including, as you 
pointed out, in earmarking of the fee demonstration projects 
and concessions, fee revenues. It totals $440 million for the 
entire range of activities that are dedicated to retiring the 
deferred maintenance and infrastructure backlog.
    There are some specific increases requested. We have our 
request to improve the software management system that we use 
to follow our project management history. It's called the 
Project Management Information System. It was developed in 1998 
and is now fully operational. We're asking $500,000 to upgrade 
that program.
    In addition, we continue to develop a software system for 
our facility management program. We anticipate that at the end 
of this fiscal year 2001 this system will be operational in up 
to 120 park units.
    The system will enable us to continue consistent 
conditioned assessment at all facilities. And it will allow us 
to provide Congress with a clear listing of priority projects 
for the National Park System to address its needs 
systematically.
    We've talked previously about the business plan initiative, 
which is not a budget item per se but sheds considerable light 
on the budget of individual parks. We will continue that 
program this summer with the National Parks & Conservation 
Association, employing students from the best business schools 
in America.
    Other specific issues addressed in the 2002 proposal 
include $1.2 million for bison management in and around 
Yellowstone in cooperation with the State of Montana. $1 
million to improve our structural fire readiness throughout the 
park system, $5.5 million to support implementation of the 
comprehensive Everglades Restoration Plan. And $30 million is 
our budget amendment, not outlined in the original 
administration proposal that came to the Hill. $30 million to 
continue funding for the Save America's Treasures Program in 
the Historic Preservation Fund. That amendment was submitted by 
the President on May 7.
    In addition, the budget proposes to increase the efficiency 
of our management of public funds which would result in a 
savings of approximately $6.1 million by reduction through 
management consolidation, decrease travel costs, and $500,000 
of savings using technological advancements such as electronic 
contracting.
    Due to the expanded opportunities for State grants for 
recreational purposes through the $450 million State grants 
program, as you point out, a nearly $350 million increase 
there, no funds are requested for the Urban Parks & Recreation 
Recovery Grants Program.
    Funding is also discontinued for the historically black 
colleges and universities assistance done through the Historic 
Preservation Fund, as that has reached its fully authorized 
level of $29 million.
    That concludes the summary of my statement, Mr. Chairman. I 
would be happy to answer yours and Senator Akaka's questions on 
the budget proposal.
    [The prepared statement of Mr. Galvin follows:]

 Prepared Statement of Denis P. Galvin, Acting Director, National Park 
                  Service, Department of the Interior

    Mr. Chairman, thank you for the opportunity to appear before you to 
discuss the Fiscal Year 2002 budget request of the National Park 
Service.
    The FY 2002 request of $2.5 billion in appropriated funds for the 
National Park Service (NPS) reflects a net increase of $364 million 
above the FY 2001 enacted level. Of the total amount, $1.5 billion 
would fund NPS operations, including the U.S. Park Police. The request 
is highlighted by three key initiatives: full funding of the Land and 
Water Conservation Fund, continued support for the NPS Natural Resource 
Challenge, and additional funding for improving and rehabilitating park 
facility infrastructure.
    The budget request supports the President's commitment to fund 
fully the Land and Water Conservation Fund (LWCF) at a level of $900 
million, including $450 million for State grants within the NPS budget. 
The $450 million State grant program funding level would significantly 
increase the National Park Service's capability to assist States and 
local governments in meeting the demand for public outdoor recreation 
and conservation needs. Matching funds would be available to assist 
States in developing their State plans, a prerequisite for 
participating in the LWCF program, as well as for the acquisition and 
development of public outdoor recreation areas and facilities, 
including projects which conserve and restore threatened wildlife, 
wetlands, and habitats. It is estimated that approximately 5,700 new 
grants would be awarded. Projects would range from acquisition of open 
space and natural areas to the development of active-use facilities. In 
addition, within the amount requested, $10 million would be set aside 
to be apportioned to Federally recognized Indian tribes through a new 
competitive grant program.
    This budget proposes an increase of $20 million for the third year 
of the Natural Resource Challenge. Continued funding of this initiative 
is a priority in order to provide a level of information that is 
critical to sound management and decision-making for resources within 
the parks. The support of Congress for the Natural Resource Challenge 
in the previous two fiscal years has enabled us to increase 
significantly our resource management in the parks through strengthened 
inventory and monitoring. We have expanded our network of university 
partners, fielded four teams to deal with exotic species, and begun to 
staff a network of learning centers.
    The third initiative is increased funding in support of the 
President's commitment to address facility infrastructure needs in 
units of the National Park System. The request includes $247 million 
for line-item construction (an increase of $138 million over last 
year's request), $15 million for housing replacement, $3 million for 
the dam safety program, and $75 million for repair and rehabilitation 
projects. These programs would increase by $61 million over FY 2001 
levels and, with another $40 million in fee revenue directed toward 
elimination of the deferred maintenance backlog, the FY 2002 NPS budget 
would increase park facility infrastructure work by over $100 million.
    In conjunction with the increase in infrastructure funding, the 
proposed budget would enable NPS to continue to improve the software 
management systems we have put in place to help track and prioritize 
projects. Our Project Management Information System (PMIS), initiated 
in phases beginning in 1998, is now fully operational and provides a 
single, easy-to-use vehicle for parks to identify and prioritize 
project requirements systematically. We are also continuing the 
implementation and field testing of a new system for management of our 
maintenance operations, the Facility Management Software System (FMSS). 
We anticipate that at the end of FY 2001, FMSS will be operational in 
up to 120 park units. The budget request would enable us to complete, 
the deployment of the system in FY 2002 and allow the system to be 
fully operational in all parks in FY 2003.
    In addition to the new management systems, the NPS is conducting a 
Servicewide comprehensive condition assessment of all facilities. 
Additional funds are requested in this budget to continue the multi-
year effort as parks are brought online with the maintenance software. 
The continuing condition assessments, along with the full 
implementation of the management software systems, will enable the NPS 
to provide Congress with a clear listing of priority projects for the 
NPS to address systematically. It will take time before all of the 
assessments are complete, but our goal is to begin in FY 2002 a process 
that uses available data to make reliable estimates of deferred 
maintenance needs and establishes objective measurements of facility 
maintenance performance.
    Other management reforms made by the NPS include the Business Plan 
Initiative, which has been accomplished in 24 parks in partnership with 
the National Parks Conservation Association. A business plan for a park 
includes the cost of core park functions, any gap between current 
funding and identified need, and the park's strategy for addressing the 
difference. The information from the business plan can then be used as 
input to the NPS project or operations management systems, depending on 
the specific needs identified.
    Other specific issues addressed in the FY 2002 budget proposal 
include:

  <bullet> $1.2 million for bison management in cooperation with the 
        State of Montana. This request is the result of the signing of 
        a Record of Decision (ROD) between the Secretary of the 
        Interior, the Secretary of Agriculture, and the Governor of 
        Montana regarding the movement of wild bison from Federal to 
        private lands in and around Yellowstone National Park. The ROD 
        calls for the establishment of a Joint Bison Management Plan to 
        reduce the unnecessary killing of bison and mitigate the risk 
        of brucellosis infection passing from bison to livestock.
  <bullet> $1 million to improve our structural fire readiness. This 
        request is the beginning of a planned four-year effort to 
        establish an accountable and comprehensive system to respond to 
        deficiencies at park facilities noted in a study conducted by 
        the General Accounting Office in 2000.
  <bullet> $5.5 million to support implementation of the Comprehensive 
        Everglades Restoration Plan (CERP). This request is in response 
        to the effort that was authorized under the Water Resources 
        Development Act of 2000, with the Corps of Engineers as the 
        lead Federal agency. This budget request represents full 
        participation by the NPS in CERP implementation and supports 
        projects that directly affect NPS managed lands in South 
        Florida.
  <bullet> $30 million to continue funding for the Save America's 
        Treasures program in the Historic Preservation Fund. The 
        President requested the continuation of this program in his May 
        7, 2001 Budget Amendment. This program would leverage private 
        funding by requiring an equal match of non-Federal funds for 
        projects to restore nationally significant historic sites, 
        structures, or artifacts.

    The NPS is also committed to increasing the efficiency of our 
management of the public funds entrusted to us while maintaining the 
operational capabilities of the parks. This budget would realize 
savings of approximately $6.1 million through the following 
streamlining actions: $4.4 million in management consolidation, $1.2 
million in decreased travel costs; and $500,000 in using technological 
advancements, including electronic contracting, to create savings 
through more efficient systems and processes. Through further 
streamlining, in keeping with Administration policy for all the 
Department of the Interior bureaus, the NPS would absorb about $11 
million in additional fixed costs.
    Due to the expanded opportunities for State grants for recreational 
purposes through the $450 million State grants program, no funds are 
requested for the Urban Parks and Recreation Recovery grants program. 
The request also discontinues funding for the grants program for 
Historically Black Colleges and Universities, which has been funded to 
its fully authorized level of $29 million. The request also reduces 
funding levels for Statutory or Contractual Aid, Historic Preservation 
Fund grants, and partnership funding for Heritage Areas.
    Mr. Chairman, this concludes my statement. I will be pleased to 
answer any questions you or other members of the subcommittee may have.

    Senator Thomas. Thank you very much. Why don't we do 5 
minutes, and we'll trade back and forth, if you will, please.
    I read, I think, that you deny that the park had said there 
would be no new parks currently. What was that statement?
    Mr. Galvin. The administration's position is currently 
developing on that. This was sort of crystalized in the 
proposals for some new parks in the house. There is a 
considered case-by-case decision to be made on studies. So the 
administration is saying we are not opposed to doing new 
studies, but we will not say what our position is until we have 
a proposed study.
    Furthermore, because of our backlog of studies commit the 
amount of money we have under current requests, we will not be 
sending Congress a list of new studies this year.
    Senator Thomas. But there could be some presented to you 
from the Congress?
    Mr. Galvin. Indeed, and there are several bills that have 
already been heard in the House that the administration has 
supported.
    Senator Thomas. One I understand is being pushed to go 
without a study.
    Mr. Galvin. Yes, although the administration's position was 
that a study should be done before the area is authorized.
    Senator Thomas. I think that's an agreement we made some 
time back.
    Mr. Galvin. Indeed it is, and it is that the entire system, 
of course, is outlined in the Omnibus Bill of 1998.
    Senator Thomas. The notion is that the park budget set 
higher when you take out--well, let me say the land and water 
State-side is not for the national parks; is that correct?
    Mr. Galvin. That's correct. The national parks----
    Senator Thomas. Administers the fund?
    Mr. Galvin. That's right, we administer, but the money goes 
to the States.
    Senator Thomas. So absent that really the funds that go to 
the park are actually less than they were last year.
    Mr. Galvin. About the same, actually, if you--well, with 
the amendment now, the $30 million amendment in the Historic 
Preservation Fund, there's actually an increase, but, again, 
that's not a program that principally is directed to parks. So 
the balance of the budget is a series of trade-offs.
    There are increases in park accounts because there are 
decreases in things like Natural Recreation and Preservation 
and the Historic Preservation Fund.
    Senator Thomas. I understand that, and I don't have any 
particular problem with that. But I think it's a little 
unfortunate to go around saying it has been increased when, in 
fact, it hasn't.
    Mr. Galvin. The net is--you're absolutely right on the net. 
The net increase goes to programs outside the parks.
    Senator Thomas. The Fee Demonstration Program, at least the 
thrust of it, has been to create things that are advantageous 
and visible to visitors. And now do I understand right that 
much of that will be diverted then to backlog, to building 
repair, to sewers, and that sort of thing?
    Mr. Galvin. Well, a fair amount of it has--goes to that 
already, but the--we're still trying to work with the 60 
percent formula to see what it means. It gets fairly 
complicated because, as you know, Senator, the fee 
demonstration program has an 80 percent/20 percent formula for 
distribution. So there may be some parks where the--where the 
60 percent of the 80 percent, so to speak, won't be able to be 
directed to backlog items.
    So it's a concept that works if you look at the total 
numbers, but it may not work so well on individual parks or 
programs. And we're still working our way through that.
    But I think the thrust of your question is correct that if 
you looked at what the fee money was used for in the first 
three years, this would change the mix of projects.
    Senator Thomas. What is the Park Service's position on 
the--I think the fee demonstration project expires, doesn't it, 
in about another year?
    Mr. Galvin. Yes, this budget request year is the final 
year. We are proposing permanent legislation.
    Also through the National Park Foundation, we're having the 
McKinsey Corporation take a look at the experience with fees 
with the principal idea of trying to simplify fees as--simplify 
and make more uniform fees as they're presented to the public.
    And I've met with them several times. They have surveyed a 
number of parks. They expect to be finished with their final 
recommendations about the end of this month. So I'm hopeful 
that that input will help us, along with the Congress, work our 
way through a permanent fee program that is simple to the 
public and yet generates considerable revenue.
    Senator Thomas. Who is doing that research?
    Mr. Galvin. McKinsey.
    Senator Thomas. What is that?
    Mr. Galvin. They're a consulting firm, real estate, 
accounting, management consulting.
    Senator Thomas. Private?
    Mr. Galvin. Yes.
    Senator Thomas. Senator.
    Senator Akaka. Thank you very much, Mr. Galvin. I 
understand the need to address the backlog of maintenance and 
repair in national parks and wanted you to know I support 
funding for repair and maintenance for deferred projects.
    The use of transportation funds from TEA-21 for road 
construction and repair makes sense. And we can rely on this 
funding for another 2 years. Please explain the rationale 
behind taking $100 million of park entrance and construction 
fees from the Recreational Fee Demonstration Program and 
redirecting them to construction projects.
    I am concerned that this decision undermines ability of 
local parks to make decisions on priorities for their 
recreation fees, recreational fees which are intended to remain 
at the specific park.
    There is a planning and review process for these funds, and 
I would prefer to see local parks continue to use their fees to 
decide whether to allocate the funds to construction or to use 
them for other needs. Can you explain that rationale behind 
taking that $100 million from park entrance fees?
    Mr. Galvin. Well, as I said to Senator Thomas, a fair 
amount of the existing fee program does go to deferred 
maintenance and does go to rehabilitation of physical 
facilities and parks. But as you correctly point out, most of 
this money goes back to the collecting park.
    So it's not as if it is available as a service-wide fund 
that can be distributed at anybody's discretion. And there are 
indeed difficulties if you say if you run a park that doesn't 
have sufficient deferred maintenance needs but is a significant 
fee collector, they use those funds to augment visitor 
facilities in projects that, as Senator Thomas said, are more 
visible to the visitor.
    We're currently trying to do a park-by-park analysis of the 
60 percent set aside to see if indeed they can be used for 
maintenance. And, as I said to Senator Thomas, it will result 
in a different mix of projects than what we've done in the 
first 3 years. I mean, direct visitor facilities would be out 
and, as he points out, sewage-treatment plants and water-
treatments plants would be in.
    Senator Akaka. I'm pleased to see the President's 
commitment to full funding for the Land and Water Conservation 
Fund.
    The National Park Service's share of the President's fiscal 
year 2002 request for Federal land acquisition is $95.1 million 
which is $18.3 million below the fiscal year 2001 enacted level 
and $40 million below President Clinton's fiscal year 2001 
request.
    I note that the Land and Water Conservation Fund includes 
$60 million for two new programs for land owner incentives and 
private stewardship. Has the Park Service completed its 
priorities for acquisitions and are the funds no longer needed 
for land acquisition and available to be reprogrammed for other 
activities?
    Mr. Galvin. We're a long way from completing our land 
acquisition priority list. As you know, Senator, the Federal 
side is shared by four agencies and the split between the four 
agencies of the sum $450 million was presumably determined by 
the Departments of the Interior and Agriculture through a 
priority-setting process, and this year it was judged that our 
priorities resulted in a lesser total. That's regrettable to 
us, but your observation is correct, it's less than it was last 
year.
    Senator Akaka. I'm pleased, as I said, that Kalaupapa 
National Historic Park received an operational increase. It was 
one of only 20 parks that received additional funds this year.
    My concern is that the vast majority of the 384 parks 
received very small increases for operation of the National 
Park System. Only 5 percent will have new funds to manage their 
parks, provide for improvement, interpretation, and education 
and to take care of visitor requests. Can you explain the 
rationale for limiting the operational increases for Park 
Service units?
    Mr. Galvin. Well, as you pointed out, very few parks got 
additional program increases this year. We did the best we 
could for fixed costs. And many of them got a fair percentage 
of their fixed costs.
    The lack of operating increases simply comes from the need 
to concentrate on the backlog and from fully funding State-side 
land and water. When you look at what's under the umbrella, 
once you get through with all of those numbers, the new 
programmatic increases in parks, there were very few of them. 
As you point out, 25 of them I think that's pretty close.
    Now, everybody did get most of their fixed costs, that is, 
their pay increases and increased lease costs and non-payroll 
costs. But even there not everybody got all of those.
    So it's a fairly tight operational budget.
    Senator Akaka. The designation of AlA Kahakai as a national 
historic trail on the Big Island was signed into law last 
November and the trail has been widely anticipated in Hawaii as 
a recreational and interpretive opportunity, and because of the 
need to curtail mistreatment of the cultural sites and 
resources. No funds have been requested for fiscal year 2002, 
and I'm told the reason is because the act was signed into law 
late last fall after the budget process was well underway.
    Looking to the future, could you provide information on 
your plans to support the project, or do you have cost 
estimates as to the funding needed to manage the trail? And, 
finally, do you anticipate requesting the funding in the next 
budget cycle?
    Mr. Galvin. Yeah, we certainly anticipate requesting 
operational funds. There are actually about five new units that 
were created late enough in this budget cycle that aren't 
covered in this 2002 budget. With respect specifically to the 
trail, I am not sure, but we have a separate fund for planning 
trails available to us. So to the extent that we need to start 
planning for the trail, I believe we can do it in this budget, 
and we certainly will be requesting operational funds for it in 
the future.
    Senator Akaka. Thank you very much. I appreciate your 
responses. Mr. Chairman, thank you.
    Senator Thomas. Let me turn a minute to concession fees. I 
think you indicated there would be some redirection of 
concession fees into the maintenance and backlog. At the same 
time, there is a fairly severe backlog of concession 
contracting. Now, if the fees from concessions go to backlog, 
how are you going to pay for doing the rather detailed 
concession contracting that needs to be done?
    Mr. Galvin. A very good question, Senator. The way the 
concessions' fees get included in the backlog is that it is--
the number is $100 million and that's 60 plus percent of $160 
million collected in fees. That $160 million includes 
concessions franchise fees.
    So the assumption is indeed that 60 percent of the 
concession franchise fees will go to the deferred maintenance 
backlog.
    But we know from private studies done by Pricewaterhouse 
that we need considerable contract assistance in negotiating 
the larger contracts that are expired and coming up for big 
ones right now, two of which are out on the street right now. 
And two are going out very shortly. And then as many as another 
100 contracts that will be mostly lumped in some large 
proposals.
    But the consultants we've engaged in the concession 
advisory board indicate correctly that to successfully 
negotiate those contracts, we would need considerable private 
contracting help.
    It had been our assumption, prior to the formulation of 
this budget, that we would use a considerable amount of the 
concession's franchise fees to do that.
    Now we are rethinking that to see--we still need the 
contracting, there's no doubt about it. So we're looking to see 
if there is someplace else we can find that money, frankly.
    Senator Thomas. It appears that the contracting makes a 
contribution over time to the income.
    Mr. Galvin. There's no doubt about that. In fact, 
Pricewaterhouse points out that there is a very large swing 
between successfully negotiating a contract and having a--well, 
say, just in terms of differences in franchise fees in these 
contracts because they're so large. There's no question that an 
investment in contracting would result in increased fees in the 
future.
    Senator Thomas. Well, it's kind of scary in that moving 
forward with the backlog of concession contracts has come along 
very slowly. Now you take some of the money away, and it seems 
like you could expect it would be even slower.
    Mr. Galvin. I share your concern. Well, the contracts are 
coming up whether we contract for them or not.
    Senator Thomas. Well, I know, but what you do is extend 
them for a year, and you do away with the competition and do 
away with the opportunity to have more money.
    Mr. Galvin. We don't want to do that, and the option seems 
to be to do it ourselves and get some expert help. And I sure 
want the expert help.
    Senator Thomas. I hope so. We suggested that, you remember, 
a couple of years ago.
    Mr. Galvin. Indeed.
    Senator Thomas. How long do you think--let's take a look 
specifically at AMFAX in Yellowstone Park. How long do you 
think it would take Pricewaterhouse to put together that 
prospectus?
    Mr. Galvin. I really don't know. I don't have a precise 
answer to that question, Senator. Two of the large contracts 
are out on the street right now. I just don't know whether 
AMFAX is one of them. But I think we're talking about a year or 
two for successful conclusion of those.
    Senator Thomas. AMFAX expires next year. It's not the only 
one, but it has come up. You know the proposition is they are 
going to get a shorter term, and whether this is being done or 
not.
    Mr. Galvin. We hope not.
    Senator Thomas. Well, you need to take a look at it because 
they're making it very attractive to do that for 3 years, as 
you know.
    In any event, I think those have to be given some priority, 
and I certainly hope that you can do that.
    Mr. Galvin. We agree.
    Senator Thomas. The law enforcement, we had a couple of 
studies mandated by Congress and undertaken by the Agency to 
make recommendations with respect to the Park Service law 
enforcement needs. The budget doesn't seem to address these 
specifically.
    Mr. Galvin. It doesn't. And, again, this budget is pretty 
limited on the real programmatic increases in operations. In 
most instances, what we funded were new operations or 
obligations like the brucelosis study or brucelosis operation 
at Yellowstone where we had an agreement with the State and 
really had to go. It was really the 15 or 20 things we funded 
are all in that category.
    Senator Thomas. I think the police operation here was one 
that was pretty clearly in need of additional funding.
    Mr. Galvin. That's right. Well, when you add them all up 
there are I think I remember something like 600 additional 
personnel, 100 in the park police. And the balance and park 
rangers. And that's--that's still on our agenda. But we just 
weren't able to get it into this budget request.
    Senator Thomas. This brucelosis had been going on forever. 
I'm sorry, I don't have much sympathy for that. I don't know 
how many years we've had the brucelosis study in the park.
    Mr. Galvin. No, this isn't a study. This is----
    Senator Thomas. I understand, but we've had a study for 
years.
    Mr. Galvin. I know that.
    Senator Thomas. I finally got--it isn't a very difficult 
thing to figure out. You have too many Buffalo in the park.
    Mr. Galvin. Someone to work with the State of Montana on 
the ground to solve that problem.
    Senator Thomas. I'm going to look for a time when you've 
got it solved because it has absolutely gone on forever. I bet 
it's gone on for 10 years.
    Mr. Galvin. Well, the----
    Senator Thomas. It doesn't matter. I think I've made my 
point.
    Senator Akaka. Mr. Galvin, as you know, Pu'uhonua o 
Honavnau National Historical Park is a premier cultural and 
historical park in the United States. Its original legislation 
did not include authority to expand its boundaries.
    However, the opportunity to expand the park to include an 
historically complete native Hawaiian site and watershed now 
presents itself. The expansion has full support of the 
community and a willing seller in the private sector.
    And this opportunity, as you know, does not come very 
often. When it does, it is appropriate to act decisively. To 
take no action would undermine, of course, an important 
opportunity for the Park Service.
    What are your thoughts regarding expanding the boundaries 
of existing parks when there is an opportunity to purchase 
additional lands adjacent to their boundaries?
    Mr. Galvin. Senator, to specifically answer your question 
about Pu'uhonua, we are preparing legislation to expand those 
boundaries. It has not yet moved its way through Interior, but 
I've seen it. And we do definitely support the expansion of the 
boundaries there.
    And the acquisition of the property through the use of 
Federal Land Acquisition Funds. And, generally speaking, in 
answer to your question, when there are important resource or 
visitor services issues that can be improved through the--
through a boundary adjustment, generally we would be in favor 
of it.
    Senator Akaka. Well, thank you again for your responses and 
thank you, Mr. Chairman, for this opportunity to ask these 
questions.
    Mr. Galvin. Thank you, sir, appreciate it.
    Senator Thomas. Denny, there are some alternatives in this 
AMFAX thing. I realize you may not know now, but I wish you 
could get back to us. This contract expires in a year, and 
there's an opportunity, I guess, for them to make a shorter 
term which is provided under the law and make some 
contributions in terms of construction. But I think we need to 
know how long it's going to take to prepare.
    Mr. Galvin. I'll get you an answer for that, Mr. Chairman.
    Senator Thomas. Okay, I appreciate it.
    The backlog is interesting. Do you have a list of 
priorities for backlog? Do you have a list of backlogs?
    Mr. Galvin. We have a 5-year program that totals--we have a 
list that totals $2.2 billion. That's the non-road portion of 
the backlog. The road portion of the backlog is $2.7 billion. 
We actually have a Federal highway survey that justifies that 
number.
    Senator Thomas. Do you have a list of priorities?
    Mr. Galvin. We have a 5-year program that is listed in 
priority in year. In fact, every project has a priority number 
on it. It goes through a priority ranking system that gives it 
a score.
    Senator Thomas. So you have for this budget year a certain 
number of those that will be done this year?
    Mr. Galvin. Yeah, and they were all ranked by priority with 
a couple of exceptions where there were needs to fund a project 
because another agency was spending money on it or they're 
finishing up a project from prior years.
    Senator Thomas. What's the accountability to the park 
superintendent or regional director as to what's done?
    Mr. Galvin. The way the priority system works is the park 
justifies the project, describes it, and then an 
interdisciplinary panel scores the project based on its 
contributions to safety, to resource protection, to visitor 
services.
    There are about five categories that each project scored 
against. And then that's essentially the way the national 
priorities are set.
    So all of these projects start in the park. In fact, that 
project management information system that I mentioned in my 
opening remarks is essentially a park database for all of the 
projects in a park.
    Senator Thomas. I guess that's kind of what concerns me. I 
suspect--I have the impression that that's kind of how it is. 
They're all out there, and it has been people--the leadership 
has been reluctant to step up and say, all right, it's this 
one, this one, and this one this year.
    Mr. Galvin. No, we do that.
    Senator Thomas. I want that done.
    Mr. Galvin. We do that.
    Senator Thomas. You haven't been doing it, apparently, to 
get $2 billion behind.
    Mr. Galvin. That may be too low a rate of investment.
    Senator Thomas. Then how with the same amount of money are 
you going to do it this year?
    Mr. Galvin. Partially we're redirecting resources to that 
particular focus, to the $440 million times five equals $2.2 
billion. But, Senator, there's no question that you're correct. 
With this big an infrastructure that you're kind of always 
running to catch up.
    You know with places like the south side of Ellis Island 
and physical facilities in some of the bigger Western parks, 
Glacier, for instance, there are huge investments to be made 
there that are problematic.
    Senator Thomas. Well, I know and I understand. And it's a 
problem, but it's a little difficult to create in your mind 
that here's the notion for all of these years we've let these 
things happen. Now we have basically the same amount of money 
but suddenly we're going to take care of it, 20 percent of it 
this year.
    Mr. Galvin. Well, it is, you know, $4.9 billion is the GAO 
number, but there are other numbers for sure.
    Senator Thomas. Well, the highway thing, of course, I think 
we made some progress on that last year and a substantial 
amount of money that goes there.
    Mr. Galvin. Absolutely, and we appreciate your assistance 
in that.
    Senator Thomas. What's the role as you develop these 
movement of funds and so on, now reallocation, what's the role 
of the business plan in it?
    Mr. Galvin. Well, the business plan is really focused at 
the park level. And we don't have a good answer to your 
question yet. But in the 20 some parks that we've done, we've 
been able to analyze 35 different business activities and get 
some handle on how they are currently funded, how they should 
be funded, what the role of project and construction funds play 
in running a park, and how much partnerships and fringe groups 
contribute.
    In some parks those latter numbers are considerable. 
They're more than--they're a significant percentage of the park 
operating budget.
    We expect to do an additional 13 parks this year, again, 
with students from the best business schools in America. And 
then hope with something like 35 parks done to be able to 
install a process that would apply to all the parks.
    But this is a fairly labor intense process right now. It's 
not one that you can simply send out instructions and expect a 
park to do. But it has been, I think, and I think Bruce 
Sheaffer would agree Bruce has mostly run this program, 
actually.
    I think we've gotten terrific help out of these business 
schools, and I think it has been very instructive for the parks 
to work with these people to figure out where, in their 
opinion, money is going and where it ought to go.
    Of course that is being funded through foundations that are 
brought to us through the National Parks and Conservation 
Association.
    Senator Thomas. This $2.4, $2.5 dollars is budget 
authority. That's appropriations.
    Mr. Galvin. That's right.
    Senator Thomas. How much addition is there on the 
contributions that are made outside funding, do you know?
    Mr. Galvin. You mean like foundation funding and 
partnership funding?
    Senator Thomas. Right.
    Mr. Galvin. I was just at the National Park Foundation 
board meeting so I can speak to that. They bring about $70 
million to the table. Now, some of that is in-kind services. 
For instance, the McKinsey study of fees is being done through 
the Foundation.
    Senator Thomas. That's just the Foundation.
    Mr. Galvin. That's just the Foundation.
    In addition then, I can think of individual parks like 
Independence where currently there is upwards of $80 million of 
construction being done that's been funded by Pew Foundation, 
the State, the city, and the Annenberg Foundation. So there are 
in some parks very considerable private assets being brought to 
solve problems.
    Senator Thomas. And some commercial businesses have built 
facilities, for instance, around Old Faithful.
    Mr. Galvin. Yes, concessioners have made investments over 
the years.
    Senator Thomas. Not concessions. That was done by Lever 
Brothers.
    Mr. Galvin. I'm not familiar with that.
    Senator Thomas. Lever Brothers.
    Mr. Galvin. Oh, what they've done there is donated 
materials for the trails, Unilever, yeah. In fact, that's a 
project that's active in about 30 parks that use recycled 
plastic to do construction.
    Senator Thomas. I guess my point is do you ever add up all 
the resources that are available to the park?
    Mr. Sheaffer. Actually, Senator, the best effort made at 
doing that has been in the course of preparing these business 
plans. We have an accounting of every dollar that comes through 
the Treasury, say, through donations.
    What we don't have an accounting of is in-kind services or 
monies that are spent on behalf of the park but do that come 
into the Federal Treasury.
    Senator Thomas. Wouldn't it be appropriate for you to note 
that?
    Mr. Sheaffer. One of the things that we find most useful in 
the business plan is getting at that very number, that's 
correct, Senator.
    Senator Thomas. I would think it would have something to do 
with your priorities in terms of other things, and so on, in 
the adjudication of Federal money.
    Mr. Sheaffer. I think it does. I think to some extent it 
already does because I think the folks that are setting 
priorities, we tend to set priorities at the lowest level. And 
I think that those parks that have the greatest access to 
cooperators and money sources tend to not be treated quite as 
well.
    Senator Thomas. Which is kind of unfair, I suppose.
    Mr. Sheaffer. I understand. All I'm saying is they do play 
that.
    Senator Thomas. But when you are the financial officer for 
the whole operation it would seem strange to me that you don't 
have a pretty definite number of how many dollars that are 
actually expended in the operation.
    Mr. Sheaffer. It is true that it would be very valuable to 
have some sense----
    Senator Thomas. Why can't you do that?
    Mr. Sheaffer. Well, we have made attempts in the past, 
sometimes getting a value on some of these services. And 
pricing some of these in-kind services becomes difficult and 
frankly auditing anything they might send us, because of the 
complexity and vastness of it, is difficult.
    But we have tried to gather those numbers up before. In 
fact, one reasonable accounting that we did do service-wide we 
provided to you in a list about 2 years ago that was as close 
as we've come to a comprehensive list, quite frankly. I still 
think because of the in-kind issue particularly it was probably 
inadequate.
    Senator Thomas. Yeah, I suppose you have to make some 
judgment, but you ought to get a hold of the director of the 
Park Service and see if you can get that done.
    Mr. Sheaffer. It is a significant number. It's not 
insignificant.
    Senator Thomas. It is. And I ran into it first in a 
particular park where I was talking about--and the budget I was 
given did not have those numbers in it. Indeed it didn't even 
have the highway numbers in it.
    Mr. Sheaffer. Yeah.
    Senator Thomas. If you're going to take a look at the 
financial condition of an operation, you need to know all of 
the resources that are available there.
    Mr. Galvin. Actually, as I said, the business plans have 
shown that that can be a very significant percentage, 50, 60 
percent.
    Senator Thomas. That's a good reason to pursue the business 
plan. I'm excited about that. Of course with that, once the 
plan is there, you're going to have some oversight and 
accountability, I would think, mostly at the regional level.
    I'm still wondering about that, whether you have 
sufficient--I mean, you need local autonomy, I understand that. 
But you also have to have accountability, and it would seem to 
me the regional people would be the logical ones to do some of 
that.
    Land purchase. What kind of lands are you purchasing when 
you have a $2\1/2\ billion backlog?
    Mr. Galvin. Most of the land that we purchase--well, all 
the land we purchase is within the authorized boundaries of 
parks.
    Senator Thomas. Inholdings?
    Mr. Galvin. Yeah, well, inholdings has sort of a narrow 
technical definition of inholdings, but I guess in the broader 
meaning, yes. Santa Monica, finishing up the Appalachian Trail, 
buying land in parks where not all the land has been bought. 
Arcadia, Appalachian Trail, Blue Ridge Parkway, Cape Cod, 
Delaware Water Gap, they are just some of the parks on this 
year's list.
    Harper's Ferry, Haleakala, which Senator Akaka mentioned 
earlier. Mostly in old-line parks where there is still private 
property within the authorized boundary.
    Senator Thomas. Well, that's good. I hope they're not 
mostly extensions. It seems to me it's kind of difficult to 
justify expansions, new expansions when you don't have the 
inholdings. Some in Teton Park, I understand, that are likely.
    Mr. Galvin. Yes, we have some acquisition at Teton this 
year.
    Senator Thomas. Do you--I'm not quite sure I understand how 
you intend to work with Pricewaterhouse. Is this a contract for 
them to do certain things, be responsible for certain things, 
or are they just doing project by project? How do you deal 
with----
    Mr. Galvin. Pricewaterhouse is under contract to us right 
now to study our concessions management. It's just the overall 
how we're doing in concessions management. And what do we need, 
what does the Park Service need to do a better job in 
concessions management?
    What they've said to us is that you're adequately staffed 
by industry standards. You spend about the same amount of money 
as the industry does to oversee this size of a program in 
normal circumstances. So if you didn't have all of these 
contracts expiring at once, you'd be okay.
    But with all of these big contracts coming up, you need 
help. You should--it's not help that you need permanently, it's 
help that you need on a contract basis.
    Now, it's--they are not necessarily going to be the 
contractors for that. We'll have to go out with an RFP and 
select a firm for that. But Pricewaterhouse got the contract to 
look at our concessions management operation.
    Senator Thomas. I presume if you got things going in the 
long term, you would set it up so that contracts expire 
periodically and don't all gather up at the same time.
    Mr. Galvin. Right, right.
    Senator Thomas. Now, you haven't given any contracts in 10 
years in some parks, so that's part of the reason you're 
jammed, isn't it?
    Mr. Galvin. Right, that's right, and plus the fact it just 
happens that a number of 30-year contracts are expiring--have 
expired in the last 2 or 3, 4, 5 years.
    Senator Thomas. But it doesn't have to just happen.
    Mr. Galvin. No, it doesn't.
    Senator Thomas. You can round it so that they're separate. 
We suggested at one time that you have some continuing 
expertise from the private business sector. And I think moving 
with Pricewaterhouse is a good start.
    But if you had a continuation of these things and needed 
oversight of the commercial end of the park, it would seem like 
it might make some sense to--I think we talked about setting up 
sort of a business----
    Mr. Galvin. There is these things called indefinite 
quantity contracts that put private expertise on retainer, 
within certain bounds, and you can call on them as needed by 
simply doing a task directive. I would think that's what we 
would want to do here.
    Senator Thomas. I would hope so. What would you say--and 
this is not easy but just with your experience and so on, what 
are the two biggest, highest priorities that you have for the 
Park Service?
    Mr. Galvin. Well, one sort of twilight perspective, Carol 
Aten calls it a death-bed conversion, we really don't know 
enough about the resources we protect to ensure that we can 
pass them on to future generations.
    And I think that the support that we've had for the natural 
resources challenge, which ultimately should double the amount 
of resources we put into that area, although it still will not 
be a major percentage of our budget, really is an important 
investment for the future.
    And I thank you and the other members of this subcommittee 
for the research and monitoring authorities that you put in the 
1998 bill.
    I went to the National Park Foundation board meeting in 
Yosemite last weekend. I started my career in the Sierras and 
really love that mountain range.
    And you know the greatest thing about parks is, gosh, you 
watch what people are doing and people from every part of the 
world in a place like Yosemite on a magnificent weekend, and 
it's such great stuff. I mean, they're having a good time, the 
country is beautiful. It's just really important I think in the 
long run not to forget that too. That the visitor, the 
experience that the visitor has in parks and the love that is 
generated for parks is really important in protecting them for 
the future, too.
    And somehow putting that together, the knowledge we gain in 
parks through our resource protection with the love that people 
have for parks I think is where we're going to come out in the 
future. I think it's what gives the National Park Service its 
support.
    But it's nice to go back to a park every now and then and 
see the fact that, you know, it isn't all snakes and it isn't 
all problems. It's a lot of people having a very good time 
loving what they do and learning something on the way.
    So I just hope the Park Service and the park system and the 
Congress continues to support intelligent visitor use of parks.
    Senator Thomas. I agree with you. One of the things we've 
been doing or I've been doing in Wyoming is a series of 
meetings where we've urged people to share their vision of 
where they want to be in 10 years or 15 years, you know. That's 
kind of what we ought to do with parks is have a vision of 
where we want to be with our park treasures in the future, then 
measure what we do in the interim against obtaining those 
goals.
    Mr. Galvin. We have the national parks advisory board 
looking at that exactly. I already know one of the things 
they're going to say. They're going to say we should play a 
more important role in education in this country. Not that we 
should replace schools or colleges or anything, but that our 
programs should be more effective.
    We should be developing more programs that use school kids, 
graduate students, and other things in the ongoing programs or 
parks. We should become more effective in helping people 
understand history and biology and, you know, academic 
subjects, not environmental education.
    Senator Thomas. That's good. Some of us don't go to learn 
to add, you know.
    Mr. Galvin. You can do both, you can do it all.
    Senator Thomas. I understand. We also have some 
controversies about the very thing you said. We want to 
preserve the park, but people ought to have access to it. Even 
on snow machines sometimes.
    Mr. Galvin. Yeah, that's where the rub comes trying to sort 
all of that out. And I suspect long after you and I are gone, 
people will be sitting in this room trying to sort that out.
    Senator Thomas. I wouldn't be at all surprised that's the 
case. What's the prospect on filling some of the vacancies, 
assistant secretaries, and those kinds of things?
    Mr. Galvin. I asked some of the political leadership just 
last week. They said they're very close. I guess they're closer 
to a director of Park Service than they are to an assistant 
secretary, but are going to wait for an assistant secretary. 
But I don't have any good names.
    Senator Thomas. Well, I do, but they're not listening to 
me.
    Well, any further questions? We appreciate what you're 
doing. I hope that--I hope that we can, as we go about our 
business, take a look at what we've done, and you worked at it, 
you and your friends also in the 1998 bill, and be sure we 
implement those things. And I'd like employee education, is 
that in the budget? Are we able to move out and help 
professionalize your employees?
    Mr. Galvin. We know that's important. It's fairly thin in 
this budget, but we know it's important.
    Senator Thomas. Those are some things that I think we need 
to do. Thank you, sir, for today.
    Mr. Galvin. Thank you, Senator. Thank you, Senator Akaka, 
for your kind words.
    Senator Thomas. Thank you for your budget, as convoluted as 
it is. If there's any further comments, we'll include them. And 
this meeting is adjourned.
    [Whereupon, at 3:45 p.m., the hearing was adjourned.]


                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

                   U.S. Department of the Interior,
                                   Office of the Secretary,
                                     Washington, DC, July 11, 2001.
Hon. Jeff Bingaman,
Chairman, Committee, on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Mr. Chairman: Enclosed are responses to questions submitted 
following the May 8, 2001 hearing on the Department of the Interior's 
FY-2002 budget request.
    Thank you for the opportunity to provide this material to the 
Committee.
            Sincerely,
                                   Jane M. Lyder,
                                           Legislative Counsel,
                                           Office of Congressional and 
                                               Legislative Affairs.
[Enclosure]

    Response of Hon. Gale Norton to Question From Senator Murkowski

    Question 1. The FY 2002 budget contains about $88 million for 
CALFED, yet Congress has not reauthorized the program. Can you please 
provide the specific authorizations for this money and explain how they 
are related to the CALFED program.
    Answer. The CALFED Bay-Delta Program assures collaboration of many 
ongoing Federal and State programs and builds on them. Reclamation and 
other agencies use existing authorities to fund those programs and 
manage them in ways that are consistent with the CALFED Bay Delta 
Program. Reclamation's budget request for FY 2002 includes $84.7 
million for activities that are currently authorized to support the 
CALFED Bay-Delta Program. In addition, the Fish and Wildlife Service 
and U.S. Geological Survey are requesting $9.7 and $0.8 million, 
respectively, in FY 2002, for a total Interior Department request of 
$95.2 million, to support CALFED Programs. The Environmental Protection 
Agency, National Marine Fisheries Service and other agencies 
participating in the Program have also requested funds within their 
existing authorities and programs that support the CALFED program.
    Several statutes authorize Reclamation's activities that support 
the goals of the CALFED Program (e.g. Central Valley Project 
Improvement Act, P.L. 102-575). The FY 2002 budget request for 
Reclamation's Water and Related Resources account and the Central 
Valley Project Restoration Fund include funds for a number of 
activities that support Bay-Delta Program objectives and priorities. 
The President's budget sought funds for each of these programs on their 
own merits independent of CALFED.
    Of the $20 million requested for FY 2002 in the Bay-Delta account, 
$12.5 million will be used to acquire water and other assets and to 
prepare necessary environmental review documents for the Environmental 
Water Account pursuant to the Reclamation Act of 1937, P.L. 102-575, 
Sec. 3406(b)(3) (Central Valley Project Improvement Act), P.L. 85-624 
(Fish and Wildlife Coordination Act), and P.L. 93-205 (Endangered 
Species Act). The balance of $7.5 million will be used to support 
CALFED and Bureau of Reclamation program monitoring, implementation 
performance tracking, and administration pursuant to P.L. 102 575 
Sec. Sec. 3406(b)(16) and 3406(g) (Central Valley Project Improvement 
Act), and the Reclamation Act of 1902.
    The Department of the Interior's CALFED Bay-Delta Program is $95.2 
million, broken down as follows:


------------------------------------------------------------------------
                   Bureau/Account                      FY 2001   FY 2002
------------------------------------------------------------------------
Bureau of Reclamation:
  California Bay-Delta Restoration..................         0   $20,000
  Water and Related Resources.......................   $37,165    30,787
  CVP Restoration Fund..............................    20,590    33,952
                                                     -------------------
    Total, Bureau of Reclamation....................    57,755    84,739

U.S. Fish and Wildlife Service:
  Resource Management...............................     1,473     2,473
  Land Acquisition..................................         0     7.235
                                                     -------------------
    Total, Fish and Wildlife Service................     1,473     9,708

U.S. Geological Survey:
  Surveys, Investigations & Research................     1,555       782
                                                     -------------------
        Total, Department of the Interior...........   $60,783   $95,229
------------------------------------------------------------------------

     Responses of Hon. Gale Norton to Questions From Senator Burns
    As you may know, Congress approved a law in the final days of the 
106th Congress that authorized the sale of nearly 400 cabin sites at 
Fort Peck Lake, one of America's largest federally created water 
projects, located in Northeastern Montana. Under the terms of that law 
[Title 804 of the Wildlife Refuge Enhancement Act] the suitability for 
conveyance of each of the cabin sites should be determined by the 
federal government no later than December 12, 2001 [which is one year 
from the date that the President signed the law, as otherwise provided 
for in 804(a)(1)]. Under the law, the process of suitability for 
conveyance is to be handled jointly by the Army Corps of Engineers 
[which is the agency currently responsible for leasing the cabin sites] 
and the U.S. Fish & Wildlife Service [which is the agency responsible 
for managing the wildlife refuge on lands nearby some of the cabin site 
lots]. It is my understanding that the Army Corps of Engineers is 
preparing now to begin its suitability study for conveying the cabin 
sites at Fort Peck Lake. However, under section 804(a)(1) of the 
Wildlife Refuge enhancement Act, the Secretary of the Interior is given 
the authority to concur or not to concur with a determination by the 
Army Corps of Engineers of suitability for conveyance. It is my hope 
that all of the cabin sites at Fort Peck Lake will be deemed suitable 
for conveyance and that the conveyance process can be started as soon 
as is reasonably possible. With that information as background, I would 
like to know the following:
    Question 2a. Will your agency be able to make its determinations of 
suitability for conveyance of the Fort Peck cabin sites before the 
December 12, 2001 deadline?
    Answer. We anticipate no problems meeting the deadline. Fish and 
Wildlife Service staff are in regular communication with the Army Corps 
of Engineers on this issue.
    Question 2b. What assistance, if any, does your agency need from 
Congress to make determinations of suitability for conveyance for all 
of the cabin site lots at Fort Peck Lake?
    Answer. We do not believe any assistance will be needed. We believe 
that the law is clear, and we do not believe there will be any 
unanticipated financial needs associated with making the suitability 
determinations.

    Secretary Norton, with respect to developing a stronger domestic 
energy policy, the administration has indicated its desire to open 
appropriate public lands to oil and gas exploration. However, the local 
officials with agencies such as the BLM and the U.S. Forest Service 
continue to issue surface occupancy stipulations which effectively 
preclude development even in instances of valid existing leasehold 
rights. An example of this is the recent State BLM Director's draft 
management plan for the Upper Missouri River Breaks National Monument 
in Montana. In one portion of this plan, the Director reaffirms the 
policy of honoring valid existing oil and gas leases. In a later 
portion of the plan the Director indicates that there will be no 
surface occupancy on soils derived from the Bearpaw shale or the Judith 
River formation. Since all of the surface within the monument falls 
into these categories all development is precluded.
    Question 3. What are the Department's plans for addressing these 
inconsistencies in policy?
    Answer. The Proclamation establishing the Upper Missouri River 
Breaks National Monument states that ``the Secretary of the Interior 
shall manage development on existing oil and gas leases within the 
monument, subject to valid existing rights, so as not to create any new 
impacts that would interfere with the proper care and management of the 
objects protected by this proclamation.'' As with all Federal oil and 
gas leases, when an Application for Permit to Drill (APD) is received, 
an environmental review is conducted and certain conditions may be 
attached to the APD to minimize adverse impacts to other resource 
values. The Montana BLM State Director's draft interim guidance for 
management of the monument lists conditions that would require closer 
scrutiny during the environmental review in keeping with the direction 
mandated by the proclamation. Those listed, however, are not unlike 
resource values that are considered during APD reviews on any public 
land (e.g. avoiding active raptor nests, riparian areas, or erodible 
soils with steep slopes).
    The section referenced by Senator Burns was intended to apply to 
steep slopes in erodible soils as a condition that would cause BLM to 
give greater scrutiny in an APD review. Bearpaw Shale and Judith River 
Formation soils are highly erodible. The comment by the Senator is 
correct in that these two soil types dominate the monument. Since BLM's 
concern was limited primarily to these soils occurring on steep slopes, 
this has been clarified in a subsequent draft of the interim guidance. 
The reference to Bear Paw Shales and Judith River Formation has been 
removed, and simple reference to 20 percent slopes has been retained. 
Final guidance is expected to be released in the very near future.
     Responses of Hon. Gale Norton to Questions From Senator Thomas
    Question 4. We have had a number of maintenance issues across the 
National Park Service, what is the Department doing to address backlog 
needs?
    Answer. The President has proposed eliminating the estimated $4.9 
billion deferred maintenance backlog in the National Park System by 
spending $2.2 billion on facilities and $2.7 billion on roads over the 
next five years. The Fiscal Year 2002 budget proposes $440 for 
facilities, a nearly 30 percent increase over last year.
    In addition to increasing funding for infrastructure, the National 
Park Service is taking steps to better manage its construction and 
major maintenance program. In response to a 1995 Department of the 
Interior task force report, actions have been taken to improve program 
management and to establish a comprehensive system of accountability 
and cost controls. For example, ranking of line-item construction 
projects is being accomplished through comparative factor analysis and 
is based on the relative advantages and costs of each project in 
accomplishing Service-wide goals and objectives. In addition, the NPS 
created a Service-wide Development Advisory Board to review all 
construction projects to ensure that they would have a high ratio of 
advantages to costs.
    We note that the Park Service manages 384 park units receiving 285 
million visitors annually. The infrastructure of the National Park 
System is extensive, and much of this infrastructure has deteriorated 
over time. Maintenance and operating funding has not kept pace with the 
aging of the park infrastructure, increasing park visitation, and--
significantly--the addition of new parks. For this reason, the 
Administration continues to implore Congress to defer action on any 
legislation that would designate new units within the National Park 
System during this session of Congress so that the National Park 
Service is able to make progress on the President's Initiative to 
eliminate the deferred maintenance backlog.
    Question 5. The National Park Service budget includes a $20 million 
expansion for the Natural Resource Challenge, what's your visions for 
this program?
    Answer. The ultimate goal of the Natural Resource Challenge is to 
preserve and protect the natural heritage entrusted to the National 
Park Service by the American public. Focusing on natural resource 
management is of the utmost importance to the future well-being of 
national parks.
    The Challenge is a 5-year plan of action with these objectives:
    1. Implementing active, scientifically-sound management of parks;
    2. Getting the scientific community at large involved in providing 
scientific information and in using the parks as scientific 
laboratories; and
    3. Making the public partners in resource preservation by educating 
them about the natural resources.
    Full implementation of the 5-year plan for the Natural Resource 
Challenge will position the Service to meet the expectation of the 
American public that their national parks will be in good condition, 
both the resources and facilities, now and in the future.
    Question 6. In your written testimony you have stated that you will 
redirect concession fees collected by the National Park Service to 
address the maintenance backlog. As a result of inaction by the last 
Administration,, the National Park Service has a severe backlog of 
concessions contracting work that must be completed under a very short 
time frame. According to recent Pricewaterhouse-Coopers study the NPS 
will need all the concession fees available for such use to contract 
high-level expertise to complete this work. What fees will be going for 
the maintenance backlog and what fees will be devoted to concession 
contracting?
    Answer. By law, 80 percent of the concessions franchise fees are 
retained by the individual parks where they are collected, and 20 
percent are used to support activities throughout the National Park 
System. At the present time, the National Park Service is using the 
Service-wide 20 percent share to address the contracting backlog. In 
addition, in the 50 parks that have major contracting actions, the 
park's 80 percent share will be used for that purpose as well.
    We expect that the majority of NPS revenues directed to the 
maintenance backlog will come from the recreation fee demonstration 
program.
    Question 7. We passed legislation in 1998 that revamps the Park 
Service's concession program to increase competition and the monetary 
returns to the government. Since then I've been frustrated by the 
agency's slow progress on the enormous backlog of concession contracts 
needing to be reissued. Do you believe there are actions that could be 
taken to address concession contracting?
    Answer. The National Park Service faces an unusually large workload 
over the next several years to address the backlog of expired 
concession contracts. While the NPS anticipates the award of up to one 
hundred contracts in the coming year, much additional work will remain. 
A business plan is being finalized that will establish a more efficient 
process to develop and execute contracts as expeditiously as possible. 
In addition, the NPS intends to contract with private sector 
consultants to assist with this process, particularly with respect to 
the relatively small number of large and complex contracts that require 
significant professional expertise beyond the Service's in-house 
capability.
    New concessions contracting regulations were promulgated in 2000. 
Those regulations represent a major change in the way the NPS conducts 
its business. A lawsuit challenging those regulations was filed against 
the Department in the United States District Court for the District of 
Columbia. Recently, the Court ruled in the government's favor, finding 
that the regulations are permissible in almost all respects, except for 
one minor provision.
    Question 8. Three rangers have died in the line of duty in the past 
ten years. In 2000, there were 99 assaults against officers performing 
law enforcement duties. This is the highest assault rate among all 
federal law enforcement agencies. Two Congressionally mandated studies 
and an agency study have made recommendations regarding law enforcement 
needs. Will the Department commit to addressing law enforcement needs 
in the National Park Service?
    Answer. Yes, we are committed to addressing the law enforcement 
needs in the National Park Service.
    In accordance with P.L. 105-391, the National Park Service prepared 
and submitted to Congress in March, 2000 the National Park Service Law 
Enforcement Programs Study, which evaluated the needs, shortfalls, and 
requirements of NPS law enforcement program. The study was presented in 
two volumes. One volume addressed the U.S. Park Police program, which 
has jurisdiction in the three urban centers of the National Park 
System: Washington, D.C., Golden Gate National Recreation Area in San 
Francisco, and Gateway National Recreation Area in New York. The other 
volume addressed the needs of field protection rangers, who are 
responsible for law enforcement, together with fire fighting, search 
and rescue, emergency medical care, resource, management, and other 
services in all other areas of the National Park System.
    In addition, following the separate, line-of-duty shooting deaths 
of two park rangers, the National Park Service commissioned a study by 
the International Association of Chiefs of Police (IACP). The IACP 
report looked into five areas: law enforcement readiness, ranger 
safety, staffing, career development, and policy and written 
directives. The IACP report was also viewed as a peer review of the 
March 2000 study.
    Each of the studies identified serious shortfalls in the NPS law 
enforcement programs, not the least of which is safety. We are 
continuing to review the findings of the studies and are developing an 
implementation strategy to address the needs identified in the studies.
    Over the last few years, land management agencies have 
institutionalized firefighter and public safety as the paramount 
concern in every fire situation. We now plan to establish the same 
priorities for our law enforcement workforce and the visiting public. 
We will continue to update Congress on actions taken to address these 
issues and progress made towards reaching the goals outlined in the 
reports.
    Question 9. The previous Administration discovered several ways to 
limit access to our parks and public lands--including snowmobiles. 
Various types of responsible, recreational access to public lands have 
become a large part of western life and an essential tourism activity. 
Snowmobiles have been proven to meet noise and emission standards. 
Should the Administration continue to work to determine if there's a 
future for responsible use of snowmobiles in the national park?
    Answer. The Administration is committed to providing a variety of 
opportunities to access and enjoy our national parks, provided that 
such uses are consistent with the laws pertaining to the National Park 
System and each park area. It is possible that the use of snowmobiles 
may be appropriate in some units of the National Park System, but only 
if it can be shown that such use is consistent with the preservation of 
park resources and values. The development of cleaner, quieter 
technology for snowmobiles, and the establishment of noise and emission 
standards for their use in national park areas could be one factor, 
among others, to be considered in determining on a case-by-case basis 
whether snowmobiles are appropriate for park use.
     Response of Hon. Gale Norton to Question From Senator Landrieu
    Question 10. For the last three years, the Chairman, Ranking Member 
and I have been working together to enact legislation which would 
provide a dedicated, reliable and multi-year commitment to conservation 
programs benefitting all 50 states by reinvesting Outer Continental 
shelf oil and gas revenues for the protection and enhancement of our 
natural and cultural heritage, threatened coastal areas, parks and 
wildlife. Last year, this Committee reported out legislation which 
accomplished these goals. Would you be willing to work with us to craft 
similar legislation again this year?
    Answer. The Administration is presently reviewing the legislation 
to which you refer, H.R. 701, the ``Conservation and Reinvestment 
Act,'' and will communicated its views on this legislation in a 
separate report. However, I am more than willing to work with the 
Committee on the issues embodied in CARA.
      Response of Hon. Gale Norton to Question From Senator Akaka
    Question 11. The President's request for the Fish and Wildlife 
Service includes an additional $14.9 million to address the conditions 
of the facilities and infrastructure at our national wildlife refuges. 
This is a 5 percent increase over FY 2001 enacted levels, and is 
greatly appreciated. One of my concerns, however, is how the Fish and 
Wildlife Service will be able to keep up with the demands of increasing 
visitorship and needs for maintenance of facilities in refuges. In 
Hawaii and the Pacific islands, the Fish and Wildlife Service is now 
charged with responsibility to manage 19 national wildlife refuges in 
our state and other Pacific islands. Palmyra Island and Kingman Reef 
are the latest additions to the refuges in the Pacific, along with 
additional responsibilities in the Northwest Hawaiian Islands National 
Wildlife Refuge. Our lighthouse and refuge at Kilauea, Kauai, has one 
of the highest visitorships in the country. The expansion of refuge 
responsibilities in Hawaii and other Pacific islands has caused a 
growing operational deficit. How will the increases in Fish and 
Wildlife Service Operations and Maintenance accounts be used to address 
the needs in Hawaii and the Pacific islands?
    Answer. Refuge needs in Hawaii and the Pacific islands were 
factored into the Administration's budget request.
    The President's request includes a net program increase of $15.0 
million for the National Wildlife Refuge system. This includes a net 
operations increase of $6.9 million and an increase of $8.1 million for 
refuge maintenance. The refuge operations increase includes $1.9 
million to support additional maintenance workers to help resolve 
critical maintenance needs. The increase for refuge maintenance 
includes $2.1 million for annual preventative maintenance projects and 
$5.9 million to complete deferred maintenance projects.
    The Service identifies and prioritizes operations needs through the 
Refuge Operating Needs System (RONS). For 2002, one maintenance worker 
position will be filled at James Campbell NWR in Hawaii with $75,000 of 
the requested $1.9 million for additional maintenance workers 
systemwide.
    Preliminary allocation decisions have not been made yet for the 
annual preventative maintenance funding.
    The Service identifies and prioritizes deferred maintenance needs 
through the Maintenance Management System (MMS), based upon rigorous 
criteria and priorities identified by the Department of the Interior. 
With the $5.9 million in requested additional funding for deferred 
maintenance, included in the President's budget, the Service will have 
a total of $53.8 million for the deferred maintenance needs of the 
National Wildlife Refuge System. Within this total, the Service plans 
to allocate a significant amount, $1.9 million, to seven refuges in 
Hawaii and the Pacific islands as indicated in the following table. 
Full project descriptions are available in the Service Five Year Plan.


------------------------------------------------------------------------
          Refuge unit          State       Project       $000
------------------------------------------------------------------------
Guam NWR......................  GU              Rehab refuge          30
                                                 shop electrical
                                                 system.
Guam NWR......................  GU              Rehab                 30
                                                 headquarters
                                                 restroom.
Hakalau Forest NWR............  HI              Rehab Hakalau         26
                                                 cabin.
Hakalau Forest NWR............  HI              Repair 44 miles      100
                                                 of fence to
                                                 control feral
                                                 pigs.
Hakalau Forest NWR............  HI              Replace Kona          67
                                                 Forest Unit
                                                 radio system.
Hakalau Forest NWR............  HI              Reconstruct 0.5      176
                                                 mile road into
                                                 Kona Forest
                                                 Unit.
Hawaiian Islands NWR..........  HI              Renovate unsafe      150
                                                 field camp on
                                                 Layson Island.
Hawaiian Islands NWR..........  HI              Replace radios        52
                                                 at French
                                                 Frigate Shoals.
James Campbell NWR............  HI              Replace 6,000 sq/    299
                                                 ft storage
                                                 building.
Kealia Pond NWR...............  HI              Replace pump at        2
                                                 HQ building.
Kealia Pond NWR...............  HI              Replace               11
                                                 additional pump.
Kealia Pond NWR...............  HI              Rehab 3,000 feet      50
                                                 of drainage way.
Kealia Pond NWR...............  HI              Replace 225 sq/       35
                                                 ft wooden shed.
Keaha Pond NWR................  HI              Repair 3,000         146
                                                 feet of
                                                 predator
                                                 control fence.
Kealia Pond NWR...............  HI              Repair 2,000          67
                                                 feet of
                                                 additional
                                                 fence.
Midway Atoll NWR..............  UM              Rehab water           85
                                                 treatment
                                                 system.
Midway Atoll NWR..............  UM              Rehab 2 bulk oil-    120
                                                 storage tank
                                                 detection
                                                 systems.
Midway Atoll NWR..............  UM              Modify bulk fuel     186
                                                 storage tank
                                                 containment
                                                 area.
Pearl Harbor NWR..............  HI              Replace fresh        280
                                                 water
                                                 distribution
                                                 lines.
                                                                 -------
                                                                   1,912
------------------------------------------------------------------------

                                    

      

</pre></body></html>
